No. 20In the

Supreme Court of the United States
CONSUMER 2.0, INC. D/B/A RENTLY,
Petitioner,
v.
TENANT TURNER, INC.,
Respondent.
On Petition for a Writ of Certiorari from the United
States Court of A ppeals for the Federal Circuit

PETITION FOR A WRIT OF CERTIORARI
Stephen Z. Vegh
Vegh IP Legal
1240 Rosecrans Ave.,
Suite 120
Manhattan Beach, CA 90266
(310) 980-7440
svegh@veghlaw.com

Rudolph A. Telscher, Jr.
Counsel of Record
K ara R. Fussner
Husch Blackwell LLP
190 Carondelet Plaza, Suite 600
St. Louis, MO 63105
(314) 480-1500
rudy.telscher@huschblackwell.com
Stephen R. Howe
Husch Blackwell LLP
555 East Wells Street, Suite 1900
Milwaukee, WI 53202
(414) 273-2100
steve.howe@huschblackwell.com

297562

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
In Alice Corp. v. CLS Bank International, 573
U.S. 208 (2014), this Court laid out the standards for
analyzing patent eligibility under 35 U.S.C. § 101, and
explained the main concern undergirding the analysis
was one of preemption. This Court did not lay out the
exact boundaries of the test, but rather had previously
instructed the Federal Circuit may expand on the test
so long as it was consistent with the statute. The Federal
Circuit however routinely skips the preemption analysis,
and has imported a quasi-section 103 analysis into Step
Two of the test for determining whether the claims recite
only “conventional” features or amount to “something
more” than a claim on the abstract idea itself.
The questions presented here are:
1)

Whether preemption is a threshold and defining
consideration that the lower courts must consider
in determining whether a claimed invention is
directed to patent eligible subject matter under
Section 101, and

2)

W hether the cour ts below have er red in
conflating the Step Two conventionality analysis
of Alice with the factual prior art patentability
analysis of Section 103, without the evidentiary
opportunities and protections against hindsight
bias afforded by Section 103 and in conflict with
this Court’s precedent in Graham v. John Deere
Co. of Kansas City, 383 U.S. 1 (1966).

ii
PARTIES TO THE PROCEEDINGS BELOW
AND RULE 29.6 STATEMENT
The parties to the proceedings include those listed
on the cover. Petitioner states that the party, Consumer
2.0, Inc. d/b/a Rently (“Rently”) does not have any parent
corporations and no publicly held companies own 10% of
more of the stock of the party.

iii
RELATED CASES
Consumer 2.0, Inc. v. Tenant Turner, Inc., No.
2:18-cv-00355-RGD-DEM, U. S. District Court for the
Eastern District of Virginia. Judgment entered November
1, 2018.
Consumer 2.0, Inc. v. Tenant Turner, Inc., No. 1901846, U.S. Court of Appeals for the Federal Circuit.
Judgment entered March 9, 2020.

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS BELOW
AND RULE 29.6 STATEMENT . . . . . . . . . . . . . . . . ii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . vii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY PROVISIONS INVOLVED  . . . . . . . . . . 1
INTRODUCTION AND STATEMENT OF THE
CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
I.

The Invention . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

II. Procedural Background  . . . . . . . . . . . . . . . . . . . . 9
REASONS FOR GRANTING THE PETITION . . . . 11
I.

The Lower Courts’ Refusal to Address the
Issue of Preemption is Contrary to This
Court’s Decision in Alice, and Undermines
the Purpose of Section 101  . . . . . . . . . . . . . . . . . 11

v
Table of Contents
Page
A. The issue of preemption is central to the
Section 101 analysis.  . . . . . . . . . . . . . . . . . . 12
B. The Federal Circuit has declared it may
ignore the issue of preemption. . . . . . . . . . .14
C. The asserted claims of the ’590 patent are
not broadly preemptive. . . . . . . . . . . . . . . . . 18
II. The Application of Section 101 Cannot be
Permitted to Subsume the Patentability
A nalysis of Section 103 Without the
Mandated Safeguards.  . . . . . . . . . . . . . . . . . . . . 21
A. This Court did not address the issue in
Alice or Bilski . . . . . . . . . . . . . . . . . . . . . . . . 23
B. The Federal Circuit’s conflation of
Sections 101 and 103 is improper . . . . . . . . 25
C. The Courts failed to properly analyze
the eligibility of Rently’s patent . . . . . . . . . 30
III. T h e E x p a n s i o n o f S e c t i o n 1 0 1
D i sprop or t ionat ely Hu r t s Sma l l
Businesses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

vi
TABLE OF APPENDICES
Page
A PPEN DI X A — J U D GM EN T OF
T H E U N I T ED S TAT E S C OU RT OF
A PPEA LS FOR THE FEDER A L
CIRCUIT, FILED MARCH 9, 2020 . . . . . . . . . . . . . 1a
A PPENDIX B — OPINION AND ORDER
OF THE UNITED STATES DISTRICT
COURT FOR THE EA STERN
DISTRICT OF V IRGINI A , NORFOLK
DIVISION, FILED APRIL 4, 2019  . . . . . . . . . . . . . 3a
A PPENDIX C — OPINION AND ORDER
OF THE UNITED STATES DISTRICT
COURT FOR THE EASTERN DISTRICT
OF V IRGINI A , NORFOLK DI V ISION,
DATED NOVEMBER 1, 2018 . . . . . . . . . . . . . . . . . 30a
Appendix D — DENIAL OF REHEARING
of the United States Court of
Appeals for the Federal Circuit,
FILED MAY 8, 2020 . . . . . . . . . . . . . . . . . . . . . . . . . 57a

vii
TABLE OF CITED AUTHORITIES
Page
Cases
United States Supreme Court Cases
Alice Corp. v. CLS Bank International,
573 U.S. 208 (2014)  . . . . . . . . . . . . . . . . . . . . . . . passim
Bilski v. Kappos,
561 U.S. 593 (2010)  . . . . . . . . . . . . . . . . . . . . . . . passim
Diamond v. Diehr,
450 U.S. 175 (1981) . . . . . . . . . . . . . . . . . . . . . . . . .13, 24
Graham v. John Deere Co. of Kansas City,
383 U.S. 1 (1966). . . . . . . . . . . . . . . . . . . . . . . . . . passim
Gottschalk v. Benson,
409 U.S. 63 (1972)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
KSR International Co. v. Teleflex Inc.,
550 U.S. 398 (2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
Le Roy v. Tatham,
55 U.S. 156 (1852)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Mayo Collaborative Services v.
Prometheus Labs., Inc.,
566 U.S. 66 (2012) . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 14
Parker v. Flook,
437 U.S. 584 (1978)  . . . . . . . . . . . . . . . . . . . . . . 3, 23, 24

viii
Cited Authorities
Page
Federal Circuit Court Cases
American Axle & Manufacturing, Inc. v.
Neapco Holdings LLC,
966 F.3d 1347 (Fed. Cir. 2020) . . . . . . . . . . . . . . . . . .  17
Ariosa Diagnostics, Inc. v. Sequenom, Inc.,
788 F.3d 1371 (Fed. Cir. 2015) . . . . . . . . . . . . . . .  15, 16
Berkheimer v. HP Inc.,
881 F.3d 1360 (Fed. Cir. 2018) . . . . . . . . . . . . . . . 29, 31
Bridge & Post, Inc. v.
Verizon Communications, Inc.,
778 F. App’x 882 (Fed. Cir. 2019) . . . . . . . . . . . . . . . . 26
Cellspin Soft, Inc. v. Fitbit, Inc.,
927 F.3d 1306 (Fed. Cir. 2019) . . . . . . . . . . . . . . . . . . 31
Cleveland Clinic Foundation v.
True Health Diagnostics LLC,
859 F.3d 1352 (Fed. Cir. 2017) . . . . . . . . . . . . . . . . . . 15
Data Engine Technologies LLC v. Google LLC,
906 F.3d 999 (Fed. Cir. 2018) . . . . . . . . . . . . . . . . 29, 30
FairWarning IP, LLC v. Iatric Systems, Inc.,
839 F.3d 1089 (Fed. Cir. 2016) . . . . . . . . . . . . . . . . . . 16
Intellectual Ventures I LLC v.
Erie Indemnity Company,
711 F. App’x 1012 (Fed. Cir. 2017) . . . . . . . . . . . . . . . 15

ix
Cited Authorities
Page
Intellectual Ventures I LLC v.
Symantec Corporation,
838 F.3d 1307 (Fed. Cir. 2016) . . . . . . . . . . . . . . . . . . 16
Internet Patents Corp. v. Active Network, Inc.,
790 F.3d 1343 (Fed. Cir. 2015) . . . . . . . . . . . . . . . . . . 25
Smart Systems Innovations, LLC v.
Chicago Transit Authority,
873 F.3d 1364 (Fed. Cir. 2017) . . . . . . . . . . . . . . . . 14-15
Synopsys, Inc. v. Mentor Graphics Corporation,
839 F.3d 1138 (Fed. Cir. 2016) . . . . . . . . . . . . . . . . . . 15
Two-Way Media Ltd. v.
Comcast Cable Communications, LLC,
874 F.3d 1329 (Fed. Cir. 2017) . . . . . . . . . . . . . . . . . . 15
Federal Statutory Authorities
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
35 U.S.C. §  101 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
35 U.S.C. §  102 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12, 27, 32
35 U.S.C. §  103 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
35 U.S.C. §  112 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Fed Cir. R. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

x
Cited Authorities
Page
Other Authorities
2019 Revised Patent Subject Matter Eligibility
Guidance, 84 Fed. Reg. 50 (Jan. 7, 2019), https://
www.govinfo.gov/content/pkg/FR-2019-01-07/
pdf/FR-2019-01-07.pdf . . . . . . . . . . . . . . . . . . . . . . . . 18
A lber to Galasso and Mark Schanker man,
Patent rights and innovation by small and
large firms, VOX CEPR Policy Portal (Jan.
7, 2016), https://voxeu.org/article/patentrights-and-innovation-small-and-large-firms . . . . . 34
Eileen McDer mott, Judge Paul Michel to
Patent Masters Attendees: It’s Time to
Wake Up to Preserve Our Patent System,
I P Wat ch Dog ( M a r. 16 , 2 0 2 0), ht t p s: //
w w w.ipwatchdog.com /2 02 0/0 3/16/judge paul-michel-time-wake-preser ve-patentsystem/id=119874/ . . . . . . . . . . . . . . . . . . . . . . . . . . . .33
Error 404: Alice And Section 101 Of The Patent
Act, Internet Association (May 1, 2017), https://
internetassociation.org/blog/160204034428er ror - 40 4 -a l ice -a nd- sect ion-101- of-the patent-act/# . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
http://oralarguments.cafc.uscourts.gov/default.
aspx?fl=2019-1846.MP3 . . . . . . . . . . . . . . . . . . . . 20, 30
https://www.cnbc.com/video/2020/03/30/virtualhome-tours-spike.html . . . . . . . . . . . . . . . . . . . . . . . . . 9

xi
Cited Authorities
Page
Judge Paul Michel and John Battaglia, New
Enablement-Like Requirements for 101
Eligibility, IPWatchDog (Aug. 19, 2020),
https://www.ipwatchdog.com/2020/08/19/newenablement-like-requirements-101-eligibilitya a m -v-ne ap co -t a ke s - c a se -l aw- cont e x t far-part/id=124433/  . . . . . . . . . . . . . . . . . . . . . . . . . . 27
July 14, 2016 Subject Matter Eligibility Update
USPTO, https://www.uspto.gov/sites/default/
files/memo_rlm-sequenom.pdf  . . . . . . . . . . . . . . . . . 19
Ju ne 2 5 , 2 014 P rel i m i na r y Ex a m i nat ion
Instructions USPTO, https://w w w.uspto.
gov/sites/default /files/patents/announce/
alice_pec_25jun2014.pdf  . . . . . . . . . . . . . . . . . . . . . . 19
Lewis, Paxton M. (2017) “The Conflation of Patent
Eligibility and Obviousness: Alice’s Substitution
of Section 103,” Utah OnLaw: The Utah Law
Review Online Supplement: Vol. 2017: No. 1 ,
Article 1, https://dc.law.utah.edu/cgi/viewcontent.
cgi?article=1000&context=onlaw . . . . . . . . . . . . . . . 26
Mark A. Lemley and Samantha Zyontz, Does Alice
Target Patent Trolls?, SSRN (Mar. 26, 2020),
https://ssrn.com/abstract=3561252  . . . . . . . . . . 32, 33
May 19, 2016 Subject Matter Eligibility Update
US P T O, ht t p s: // w w w.u s p t o. g o v/s it e s /
default/files/documents/ieg-may-2016_enfish
_memo.pdf . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

xii
Cited Authorities
Page
October 2019 Update: Subject Matter Eligibility
US P T O, ht t p s: // w w w.u s p t o. g o v/s it e s /
defau lt /f i les /docu ment s /peg _oct _ 2 019_
update.pdf  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Paul R. Michel, Patent Eligibility from Mayo to
American Axle and Beyond, FedCircuitBlog (Aug.
3, 2020), https://fedcircuitblog.com/2020/08/03/
guest-post-patent-eligibility-from-mayoto-american-axle-and-beyond/  . . . . . . . . . . . . . . . . . 27
Robert Sachs, #Alicestorm: Patent Invalidations
and USPTO Practice After Alice, Bilski Blog
(Jan, 13, 2015), https://www.bilskiblog.com/
2015/01/alicestorm/ . . . . . . . . . . . . . . . . . . . . . . . .  16, 17
Rules and Regulations, 79 Fed. Reg. 241 (Dec. 16,
2014), https://www.govinfo.gov/content/pkg/
FR-2014-12-16/pdf/2014-29414.pdf . . . . . . . . . . . . . . 19
The State Of Patent Eligibility In America:
Part II, (2019) (testimony of Dr. William
Jenks; The Internet Association), https://
w w w.judiciary.senate.gov/imo/media/doc/
Jenks%20Testimony.pdf . . . . . . . . . . . . . . . . . . . . . . . 34
The State Of Patent Eligibility In America: Part III,
(2019) (testimony of Kimberly Chotkowski), https://
w w w.judiciary.senate.gov/imo/media/doc/
Chotkowski%20Testimony.pdf  . . . . . . . . . . . . . . . . . 27

xiii
Cited Authorities
Page
The State Of Patent Eligibility In America:
Pa r t III, (2 019) (t e st i mony of Ma n ny
Schecter; International Business Machines
C o r p o r a t i o n) , ht t p s : // w w w. j u d i c i a r y.
senat e.gov/i mo/med ia /doc /Schect er %2 0
Testimony.pdf  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
The State Of Patent Eligibility, (2019) (testimony
of Michael M. Rosen), https://www.judiciary.
s e n a t e . g o v/ i m o / m e d i a /d o c / R o s e n % 2 0
Testimony1.pdf  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

1
OPINIONS BELOW
The Rule 36 disposition of the Federal Circuit is
reported at 796 F. App’x 752 and reproduced at Pet.
App. 1a-2a. The Federal Circuit’s decision denying
Petitioner’s petition for panel rehearing and rehearing
en banc is reproduced at Pet. App. 57a-58a. The District
Court’s decision granting respondent’s motion to dismiss
is reported at 343 F. Supp. 3d 581 and reproduced at
Pet. App. 30a-56a. The District Court’s decision denying
petitioner’s motion for leave to file an amended complaint
is reported at 2019 WL 8895213 and reproduced at Pet.
App. 3a-29a.
JURISDICTION
The Federal Circuit entered judgment on March 9,
2020. It denied petitioner’s timely petition for rehearing
on May 8, 2020. On March 19, 2020, this Court extended
the time for filing a petition for writ of certiorari to
October 5, 2020. This Court has jurisdiction under 28
U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
35 U.S.C. § 101. Inventions Patentable
Whoever invents or discovers any new and useful
process, machine, manufacture, or composition of matter,
or any new and useful improvement thereof, may obtain a
patent therefor, subject to the conditions and requirements
of this title.

2
INTRODUCTION AND
STATEMENT OF THE CASE
This Court’s decision in Alice provided a welcome
clarification to the law of Section 101 and has undoubtedly
been effective in stemming the flood of patents directed
to nothing more than age-old ideas applied on a computer.
Unfortunately, it’s misapplication by the lower courts has
also resulted in the invalidation of non-preemptive patents
directed to real innovation, and has disproportionately
hurt individual inventors and start-ups, particularly in
the realm of software and IT. Without the protection of
patents, these companies have difficulty competing against
larger IT and software companies that are infamous for
their monopoly-like market power.
In this case, the Federal Circuit invalidated, as
ineligible, a patent that revolutionized the real estate
showing industry. The idea was so revolutionary that
industry criticized it as an unworkable approach to
showing real estate. As the patent owner proved the
industry wrong, criticism gave way to resounding praise
and commercial success, and ultimately, copying. Unlike
the hundreds of older patents that were properly cleaned
up in the years following Alice, this patent was examined
by the USPTO after guidance on and adapting to the
Section 101 analysis in light of Alice. Having specifically
considered the Section 101 issues, the USPTO allowed
the claims, which unquestionably do not preempt any
broad ideas or industries. The claims are directed to one
particular method of providing safe and secure access to
a building for showing real estate, utilizing a technologyenabled lockbox capable of coordinating with a database
and responding to unique, time-limited codes only at

3
the predetermined location and time. This legitimate
invention was invalidated at the pleading stage despite
concrete factual allegations regarding its unconventional
nature, and without any assessment of the potential,
or lack thereof, for the claims to broadly preempt any
idea or industry. The courts involved here completely
ignored the question of preemption, and instead applied
a test that conflated the requirements of Sections 101
and 103 – apparently determining at the pleading stage
that the invention, although alleged to be unconventional,
combined known elements and thus was not worthy of
patent protection, mostly in a finger to the wind sort of
approach. Yet this is not, and should not, be the analysis
under Section 101.
Unlike other petitioners who have come before it,
Petitioner here does not seek a complete overhaul or
revocation of this Court’s decision in Alice. Rather,
Petitioner believes this Court was on the right track with
Alice, but that more guidance is required in order to reign
in the lower courts’ misapplication of the rule so legitimate
inventions are not mistakenly invalidated. This Court made
clear in Alice that preemption is the “concern that drives
[the] exclusionary principal,” and that patents that “pose
no comparable risk of pre-emption . . . remain eligible” for
patenting. Alice, 573 U.S. at 217. And elsewhere this Court
has observed that the issue of patent eligibility is separate
from the “familiar issues of novelty and obviousness.”
Parker v. Flook, 437 U.S. 584, 588 (1978). Section 101 should
thus be a mere speedbump on the road to the more complex
analysis of patentability, aimed at weeding out patents that
broadly preempt by claiming only the abstract concept.
As aptly stated by this Court, “we tread carefully in
construing this exclusionary principle lest it swallow all of

4
patent law” because at some level all inventions “embody,
use, reflect, rest upon, or apply laws of nature, natural
phenomena, or abstract ideas.” Alice, 573 U.S. at 217.
Too broad an interpretation of this rule would ultimately
“eviscerate patent law” and undermine the balance
sought to be struck by the principles underlying § 101.
See Mayo Collaborative Servs. v. Prometheus Labs., Inc.,
566 U.S. 66, 71 (2012).
Since Alice and Bilski involved patents directed to ageold ideas applied on a general computer, there was no cause
for this Court to parse the bounds of patent-eligibility, or
define the entirety of the analysis. There was similarly
no need to provide guidance as to what constitutes an
inventive concept, or what considerations may be taken
into account when determining whether a claimed element
is “conventional” in Step Two of Alice when this issue is
debatable. Because there was no cause to address those
particular issues, this Court instructed that the Federal
Circuit may expand upon the Section 101 analysis and fill
in the bounds it did not reach, but with the caveat that any
expansion must be consistent with the text of the Patent
Act, and of course, this Court’s decisions on the issue.
See Bilski v. Kappos, 561 U.S. 593 (2010). Yet there
can be no doubt that the Federal Circuit’s application
of the rule departs drastically from the intent of this
Court. The Federal Circuit has, both implicitly and
explicitly, conducted the Section 101 analysis in a way
that conflicts not only with the underlying import in
this Court’s decisions, but also the mandated distinction
between Sections 101 and 103, the latter being where true
patentable assessment in view of prior art is supposed to
occur. In this case and many others like it, the Federal
Circuit has completely abandoned the preemption

5
analysis, finding it inherent in the two-step analysis, and,
therefore, acceptable to disregard. But, it is this complete
disregard for the core focus of the Alice test that has led to
the “exception swallowing the rule.” The Federal Circuit
has further declared that Step Two is a question of both
fact and law, but has done so in a way that conflates the
requirements of Sections 101 and 103, and has resulted in
courts making an overall assessment of the patentability
of an invention under the guise of Section 101, but without
grappling with any of the more complicated aspects of
Section 103 aimed at avoiding hindsight bias, including
consideration of secondary consideration evidence (the
fourth element of Graham v. John Deere), which were
strongly of record below.
Commentary abounds regarding these failures, as well
as the disproportionately negative effect the application
of Alice has had on small businesses. Where, as here, the
patent system fails, it fails these small inventors the most.
Unlike larger corporations that can rely on market power
or a massive portfolio of patents to protect their marketshare in the event of an improper invalidation, smaller
software and IT companies are dependent on a properly
functioning patent system, and an improper invalidation
can be devastating to their business. (See infra at 18-19.)
It is therefore imperative that this Court grant certiorari
and finish the task it began in Alice by clarifying the
bounds and requirements of the Section 101 analysis to
make clear that where there is no risk of preemption, the
exclusionary principals should not apply. Clarification is
further needed on the issue of Step Two, and in particular
whether Step Two of the Alice analysis is a question of
law or fact, and if a question of fact, what considerations
are permitted. Petitioner asserts that with the proper

6
clarification of the scope of the Section 101 analysis, the
oft-heard calls for congressional overhaul of the statute
would become moot, and that Section 101 jurisprudence
would finally be in a place to accomplish its purpose of
striking a balance between rewarding legitimate invention
while avoiding patents that broadly preempt general ideas.
Here, the USPTO carefully considered the Section 101/
Alice issues, allowed the patent claims, and its decision
making should not be cast aside with no meaningful
analysis at the pleading stage.
I.

The Invention

Rently, a small property management technology
company located in California, revolutionized the
property-showing process by conceiving of and designing
a secure method for showing properties through secure
self-entry by prospective buyers or renters. In April
2014 Rently sought patent protection for its invention—a
system that coordinated a server, several discrete pieces
of software, and a technology-enabled lockbox to provide
secure self-entry to properties by utilizing unique,
time-limited lockbox codes that could be provided to
a visitor and which would be capable of operating the
technology-enabled lockbox to provide entry only during
the predetermined timeframe. Appx41-63. The claims
of Rently’s U.S. Patent No. 9,875,590 (the “’590 patent”)
did not issue on any broad concept of real estate showing
or entry, or even a moderate portion thereof. Nor were
they directed to mere use of a computer to automate
showing real estate. Rather, the claims of the ’590 patent
are directed to one particular, unconventional method of
accomplishing secure automated entry. Specifically, claim
7 of the ’590 patent recites:

7
A method for providing automated entry to
properties, comprising:
placing a lock box or an automated door lock at
or near a property;
making the property available as an open house
to invited visitors;
providing an application interface of an
application running on a computing system to
a property manager, the property manager
being a manager or an owner of the property,
the application interface prompting the
property manager to enter a visitor name
and contact information for a visitor, wherein
upon receipt of the visitor name and contact
information, the application provides the
visitor with an invitation to receive automated
entry information including code information
that is valid during a specified period of time
so that the visitor can enter the property by
themselves, the invitation being delivered
to the visitor electronically, the invitation
being applicable only to the property and the
invitation requesting identification from the
visitor;
upon the application receiving and confirming
identification information from the visitor,
providing, by the application, automated entry
information to the visitor that allows the visitor
to enter the property, the automated entry
information including code information that is
valid during the specified period of time;

8
upon the visitor providing the code information
to the lock box or automated door lock within
the specified period of time, the lock box or
automated door lock opening to facilitate
automated entry to the property; and,
providing notification, originating from the lock
box or automated door lock, to the property
manager when the visitor enters the property.
Appx62 at 10:25-58.
The claims as originally drafted slightly prior to
this Court’s decision in Alice were broader in scope than
those that ultimately issued. After this Court’s decision
in Alice however, and in light of the significant guidance
provided by the USPTO to its examiners on the issue of
patent eligibility, the office issued its first rejection on
October 11, 2016. There, the pending claims were rejected
as directed to non-statutory subject matter under § 101,
specifically citing Alice as support. Appx154-157. In 2016,
and in order to overcome this rejection, Rently added
specific limitations that, among other things, required
the presence of a “lock box” that could provide access for
a specific visitor to a specific property through a unique
durational code valid only for a specified time period.
Appx173-174; Appx176. Unlike conventional lockboxes
that utilize a single code at all times unless manually
modified, the method now claimed required application to
provide the visitor with an invitation that includes “code
information that is valid during a specified period of
time.” Id. With the amendments requiring time-specific
coded lock boxes, the examiner agreed that “Applicant’s
response by virtue of amendments to claims has overcome

9
the Examiner’s rejection under 35 U.S.C. § 101.” Appx186.
The patent issued on January 23, 2018 with claim 7 in the
form set forth above.
This patent did not then sit on a shelf only to be pulled
out and broadly asserted. Rather, Rently built a business
around its patented method. As of the time of the Amended
Complaint, and as alleged, Rently had approximately
35,000 “smart” lockboxes in circulation for self-showings
across the United States. Appx406, ¶ 17. These lockboxes,
coordinated with servers and used for automated entry
as described in the ’590 patent, can be configured to issue
from 9 to 100 unique durational codes per day and Rently
can register up to 160,000 or more renters in its automated
entry system each month. Appx406, ¶ 17.
Though initially met with skepticism, Rently’s
innovation ultimately received notice and praise for
“chang[ing] the game when it comes to showing rentals.”
Appx415, ¶ 43; Appx466-470. And this praise and success
has become even more pronounced lately, with Rently’s
invention recently being featured on CNBC because of
the surge in business for the embodiment of its patented
method during the global COVID-19 pandemic. See https://
www.cnbc.com/video/2020/03/30/virtual-home-toursspike.html.
II. Procedural Background
After Tenant Turner, Inc. (“Tenant Turner”) copied
the commercialized embodiment of Rently’s invention,
Rently filed suit on July 3, 2018 for infringement of claims
7-16 the ’590 patent. Appx90-105. In response, Tenant
Turner moved to dismiss the asserted claims under 35

10
U.S.C. § 101. Appx121-152. On November 1, 2018, over
Rently’s opposition, the district court granted Tenant
Turner’s motion and dismissed the complaint. Pet. App.
30a-56a. Rently promptly filed a motion for leave to file an
Amended Complaint and to alter or amend the judgment.
In that Amended Complaint, Rently set forth numerous
factual allegations regarding the unconventional nature
of the claimed invention as a whole, the unconventional
nature of the “technology enabled” lockbox of the claims
(i.e., a lockbox capable of recognizing the recited timelimited codes), and the commercial success and industry
response to the offered system. Appx398-508; Appx509516.
The district court analyzed the asserted claims
under the two-step framework established in Alice, as
interpreted by the Federal Circuit. At the first step, the
district court found the claims directed to the abstract
idea of “provid[ing] automated entry.” Pet. App. 48a;
Pet. App. 15a-17a. At Step Two, the district court found
that the claims merely required the use of “generic
computer components,” despite the factual allegations to
the contrary in Rently’s Amended Complaint. Pet. App.
51a; Pet. App. 27a-28a. Rently alleged, and the claims
unquestionably require, a lockbox capable of recognizing
time limited codes. Despite this and despite Rently’s
allegation that such “technology enabled” lockboxes
were unconventional, the district court found the words
“technology enabled” were not in the claims. The district
court seemingly failed to understand that a “conventional”
lockbox is not what the claims require, and summarily
found “lockboxes” conventional. The court did not address
the issue of preemption (or lack thereof).

11
Rently timely appealed the district court’s decision.
In its briefing to the Federal Circuit, Rently argued,
among other things, that the claims were not preemptive,
were not abstract, and provided the “something more”
required under Alice. Fed. Cir. ECF Nos. 15, 20. Rently
further argued that the court was obligated to accept
its reasonable construction of the claims at the pleading
stage, as well as its factual allegations that the claimed
method and the use of such a lockbox was not routine,
conventional, or well-known. Fed. Cir. ECF No. 15 at
33-37; Fed. Cir. ECF No. 20 at 8-11, 14-19. As Rently
explained, those issues could not be decided adverse to
Rently at the pleading stage under applicable precedent,
which is all that was required to survive Tenant Turner’s
motion to dismiss. Id. Nonetheless, the Federal Circuit
affirmed without comment under Rule 36.
REASONS FOR GRANTING THE PETITION
I.

The Lower Courts’ Refusal to Address the Issue of
Preemption is Contrary to This Court’s Decision in
Alice, and Undermines the Purpose of Section 101.

Certiorari is necessary for this Court to clarify the
role preemption plays in a Section 101 analysis, and to
ensure lower courts are consistently and properly applying
the test as set forth. In this case, and many others like it,
the Federal Circuit has moved too far from the underlying
theme of Alice, and has instead begun applying its own
brand of Section 101 jurisprudence in a way that completely
ignores the issue of preemption, ultimately invalidating
not only preemptive patents like those in Alice and Bilski,
but also legitimate, non-preemptive inventions, and at the
pleading stage in conflict with the USPTO’s consideration

12
of the same issues and against the backdrop of substantial
secondary consideration evidence powerfully showing this
invention was revolutionary and patentable. Where there
is no risk of broad preemption of an underlying idea, courts
must follow this Court’s guidance and find the claims
eligible for patent protection. See Alice, 573 U.S. at 217.
The analysis can then proceed under Sections 102, 103,
and 112, which is where Congress intended patentability
to be assessed.
A.

The issue of preemption is central to the
Section 101 analysis.

This Court has described Section 101 as an attempt to
strike a balance between protecting inventors and avoiding
monopolies over the application of general principles. See
Bilski, 561 U.S. at 606. When laying out the modern
test for patent-eligibility in Alice, this Court stated the
“concern that drives [the] exclusionary principle” is “one of
pre-emption.” Alice, 573 U.S. at 216. This Court explained
the purpose of Section 101 and its new test for eligibility in
no uncertain terms – the goal was to distinguish between
patents that claim the building blocks of human ingenuity
(i.e., abstract ideas) and those that integrate those ideas
into something more, because while patents claiming
mere abstract ideas would risk disproportionally tying
up the use of those ideas, those integrating the ideas into
something more “pose no comparable risk of pre-emption.”
Id. at 217. There, this Court found claims directed to
the fundamental economic concept of intermediated
settlement, as applied on a computer, ineligible for patent
protection. Id. at 219, 223-224. Given the ubiquity of
computers at the time, such claims would effectively result
in a “monopoliz[ation] [of] the abstract idea itself.” Id. In

13
reaching this conclusion, this Court acknowledged that
claims that do not “disproportionately t[ie] up the use of
the underlying ideas . . . pose no comparable risk of preemption, and therefore remain [patent] eligible.” Id. at
217. Thus, the underlying question is whether the claims
at issue would effectively monopolize the fundamental
idea itself in the modern world, or if they were merely one
application of that idea.
This focus on preemption was not new in Alice – it is
and always has been central to the eligibility analysis. In
1853, this Court explained that principles “in the abstract”
cannot be patented purely because they are just a
“motive,” of which “no one can claim . . . an exclusive right.”
Le Roy v. Tatham, 55 U.S. 156, 175 (1852). Such a patent
“would prohibit all other persons from making the
same thing by any means whatsoever.” Id. (emphasis
added). More than a century later, this Court once
again demonstrated the importance of focusing on
preemption. There, this Court explained that a claimed
method for curing synthetic rubber was patent-eligible
under Section 101 because although it employed a wellknown mathematical equation, the claims did not “seek
to pre-empt the use of that equation,” but instead only
foreclosed “the use of that equation in conjunction
with all of the other steps in their claimed process.”
Diamond v. Diehr, 450 U.S. 175, 187 (1981). Next, in Bilski,
this Court found a patent claiming the old concept of risk
hedging as performed by a computer ineligible, because
it “would pre-empt use of this approach in all fields, and
would effectively grant a monopoly over an abstract idea.”
Bilski, 561 U.S. at 612. Once again, preemption was the
focus, and avoiding such preemption the goal – nothing
more and nothing less.

14
Although this Court set forth a two-step analysis
to aid lower courts in determining whether claims are
directed to patent-eligible subject matter, any application
of that test must still be consistent with this Court’s
rulings, and the focus must therefore remain on the issue
of preemption and the practical effects of the claims as
would be applied to the real-world market. See Bilski,
561 U.S. at 612; Mayo, 566 U.S. at 72–73 (Claims directed
to an abstract idea require an inventive concept to “ensure
that the patent in practice amounts to significantly
more than a patent upon the natural law itself.”);
Gottschalk v. Benson, 409 U.S. 63, 72 (1972) (The patent,
“in practical effect would be a patent on the algorithm
itself.”) Where there is no risk of broad preemption,
claims must remain eligible for patent protection. Alice,
573 U.S. at 217.
B. The Federal Circuit has declared it may ignore
the issue of preemption.
Contrary to this Court’s instructions, the Federal
Circuit has utterly failed, in all but the rarest of
circumstances, to analyze whether the claims at issue
are broadly preemptive. Instead, it has turned the
issue into a circular exercise of hand-waiving, where
preemption is only addressed after the fact as added
justification for patents that already survived its selfcreated test, or completely brushed aside when it felt the
patents simply did not seem patentable. As frequently
touted in response to a patent holder’s argument that
their patent is not preemptive, “when a patent’s claims
disclose patent ineligible subject matter, preemption
concerns are fully addressed and made moot.” See
S m a r t S ys . In n o v a t i o n s , L L C v . C h i c a g o

15
T r a n s i t A u t h . , 8 7 3 F. 3 d 1 3 6 4 , 1 3 7 5 ( Fe d .
Cir. 2017) (internal quotations omitted); see also
Cleveland Clinic Found. v. True Health Diagnostics
L L C , 8 5 9 F. 3 d 1 3 5 2 , 1 3 6 3 ( Fe d . C i r. 2 017 ) ;
Intellectual Ventures I LLC v. Er ie Indem . Co.,
7 1 1 F. A p p ’ x 1 0 1 2 , 1 0 1 9 ( Fe d . C i r. 2 0 17 ) ;
Two-Way Media Ltd. v. Comcast Cable Commc’ns,
L L C , 8 74 F. 3 d 1 3 2 9 , 1 3 3 9 ( Fe d . C i r. 2 017 ) ;
Synopsys, Inc. v. Mentor Graphics Corp., 839 F.3d
1138, 1150 (Fed. Cir. 2016). In each instance, the issue of
preemption (or lack thereof) was ultimately ignored.
The Federal Circuit’s departure from true preemption
analysis appears to have begun with its decision in
Ariosa Diagnostics. See Ariosa Diagnostics, Inc. v.
Sequenom, Inc., 788 F.3d 1371, 1379 (Fed. Cir. 2015).
There, the Federal Circuit acknowledged “the principle
of preemption is the basis for the judicial exceptions to
patentability,” but noted that “questions on preemption
are inherent in and resolved by the § 101 analysis.” Id. In
essence, the Federal Circuit determined it could ignore
the issue of preemption if it otherwise believed the patent
to be undeserving, despite the fact that preemption itself
is the core of the analysis and the entire reason for the
exclusionary principal. This circular logic undermines
the very import of this Court’s decisions on the issue.
If preemption is the basis for the exclusionary principal
and the focus of the analysis, it cannot be brushed aside
simply because a court otherwise believes the patent to
be undeserving, nor can it inherently be resolved by such
a determination. Those are determinations that should be
made under Section 103 in accord with Graham v. John
Deere where the protections against hindsight invalidation
are present. And if claims that “pose no comparable risk

16
of pre-emption” are intended to “remain eligible” for
patent protection, failing to conduct such an analysis
risks broadening the scope of the exclusionary principal
well beyond its original intent. See Alice at 217. Where
preemption concerns are avoided by patent claims that
do not simply recite an abstract idea and state “apply it,”
the inquiry should, by definition, move beyond Section 101
and proceed to patentability portions of the Act.
While ultimately Ariosa may have only stood for
the unremarkable idea that “the absence of complete
preemption does not demonstrate patent eligibility” (id.
at 1379 (emphasis added), it ushered in a willingness
to ignore the issue entirely, including for patents with
claims that are “narrow,” are limited to “a specific
way” of accomplishing the goal, or do not even preempt
the alleged idea in that particular field of use. See
Intellectual Ventures I LLC v. Symantec Cor p.,
8 3 8 F. 3 d 1 3 0 7 , 1 3 2 0 – 3 1 ( F e d . C i r. 2 0 1 6 ) ;
FairWarning IP, LLC v. Iatric Sys., Inc., 839 F.3d 1089,
1098 (Fed. Cir. 2016). Commentators have taken note,
with some observing that the Federal Circuit was merely
“paying lip service” to the issue of preemption even
before it explicitly rejected the analysis in Ariosa. Robert
Sachs, #Alicestorm: Patent Invalidations and USPTO
Practice After Alice, Bilski Blog (Jan, 13, 2015, https://
www.bilskiblog.com/2015/01/alicestorm/. As aptly stated
by the author of BilskiBlog, “[b]y removing preemption
from the analysis, the court can decide for itself what
counts as significant, even though there are no facts in
the record to support this conclusion. When preemption
no longer matters, a court can reach any patent eligibility
outcome it desires, even if there is no risk of preemption,
let alone the disproportionate level of risk that is the

17
Supreme Court’s concern.” Id. Yet the Federal Circuit
is not uniform in its refusal to address preemption, with
current justices calling out the remainder of the court
over this very issue. Just recently Judge Stoll noted
in dissent in American Axle that the Federal Circuit
“has strayed too far from the preemption concerns that
motivate the judicial exception to patent eligibility.”
Am. Axle & Mfg., Inc. v. Neapco Holdings LLC, 966
F.3d 1347, 1363 (Fed. Cir. 2020) (Stoll, J. dissenting.)
There, the Federal Circuit found ineligible claims that,
in Judge Stoll’s opinion, as here, are “far removed
from the canonical ineligible claim that ‘simply state[s]
the law of nature while adding the words ‘apply it.’”
Id. Judge Moore has similarly indicated that the
Federal Circuit no longer seems concerned with the
issue of preemption, which “should be the focus.”
Am. Axle & Mfg., Inc. v. Neapco Holdings LLC, 967 F.3d
1285, 1316 (Fed. Cir. 2020) (Moore, J., dissenting.)
Meanwhile, the USPTO has gotten things right in
this regard, and has properly incorporated this Court’s
instructions into its procedures for examining patents
under Section 101. Consistent with this Court’s focus on
the issue of preemption, the USPTO has issued guidance
to its examiners explaining that a claim that recites
an abstract idea is not “directed to” the abstract idea
“if the claim as a whole integrates the recited judicial
exception into a practical application of that exception.”
October 2019 Update: Subject Matter Eligibility USPTO,
https://www.uspto.gov/sites/default/files/documents/
peg_oct_2019_update.pdf at p. 10. While the USPTO has
taken this approach as part of the question of whether the
claim is “directed to” an abstract idea, it did so in light
of considerations from both Step One and Step Two of

18
the Alice analysis. 2019 Revised Patent Subject Matter
Eligibility Guidance, 84 Fed. Reg. 50 (Jan. 7, 2019), https://
www.govinfo.gov/content/pkg/FR-2019-01-07/pdf/FR2019-01-07.pdf at p. 53.
Thus, unlike the Federal Circuit, the USPTO has
recognized that the focus on preemption underlies the
entirety of the Section 101 analysis, and that patent
claims which may appear to involve an abstract idea are
nonetheless eligible when the practical application of those
claims would not preempt the entire idea.
C.

The asserted claims of the ’590 patent are not
broadly preemptive.

The Federal Circuit’s decision to ignore the issue
of preemption is no mere academic failure – it directly
resulted in the invalidation of independent claim 7 of
Rently’s patent, at the pleading stage no less. Unlike
Alice or Bilski, the asserted claims of the ’590 patent do
not preempt an entire field or idea, nor do they merely
take an abstract idea and recite “apply it” on a computer.
The district court found the claims directed to the
abstract idea of “automated entry,” but they are much
narrower. Pet. App. 48a-49a. Although the claims of the
original application may have been slightly broader in
scope initially, the examiner rejected those claims under
Section 101, and ultimately allowed them to issue only
after they were amended to specifically require the use
of unique time-dependent entry codes and a technologyenabled lockbox capable of responding to those codes
to provide entry only during the predetermined period
of time (among other things), such that any preemption
concerns were alleviated. (See supra at 5.) At this point,

19
USPTO examiners were well versed in the rule, and knew
how to properly apply it. They not only had the benefit of
this Court’s ruling in Alice several years prior, but also
significant guidance from the USPTO on the issue of
patent eligibility in light of Alice. See e.g., June 25, 2014
Preliminary Examination Instructions USPTO, https://
w w w.uspto.gov/sites/default/files/patents/announce/
alice_pec_25jun2014.pdf; Rules and Regulations, 79 Fed.
Reg. 241 (Dec. 16, 2014), https://www.govinfo.gov/content/
pkg/FR-2014-12-16/pdf/2014-29414.pdf; May 19, 2016
Subject Matter Eligibility Update USPTO, https://www.
uspto.gov/sites/default/files/documents/ieg-may-2016_
enfish_memo.pdf; July 14, 2016 Subject Matter Eligibility
Update USPTO, https://www.uspto.gov/sites/default/files/
documents/memo_rlm-sequenom.pdf.
The ’590 patent thus did not issue on the broad concept
of gaining “automated entry” as the district court held, but
instead was properly limited to a non-preemptive discrete
method of accomplishing entry to properties by lockbox
recognition of unique time, visitor, and property-specific
“automated entry information.” Finding otherwise would
read out critical limitations of claim 7 that require the
method to be accomplished through use of “a lock box or an
automated door lock” capable of “facilitate[ing] automated
entry to the property” upon the “visitor providing the code
information to the lock box or automated door lock at the
property within the specified period of time.” Appx62,
’590 patent at 10:43-44, 51-55.
Rather than follow this Court’s instructions, the
district court ignored the issue of preemption. Instead,
it simply held that the claim was directed to the abstract
idea of providing automated entry, and that the claims

20
contained nothing more than the implementation of that
idea on generic computer components. Pet. App. 41a-43a.
Absent from this analysis was any assessment of whether
the claims were narrower than the idea itself, or would
otherwise preempt the use of that idea. In fact, the term
“preempt” or any variation thereof does not appear
once in the district court’s decisions. Pet. App. 3a-56a.
And the Federal Circuit’s Rule 36 affirmance fared no
better, despite one Justice’s acknowledgment during oral
argument that there were other methods of accomplishing
automated entry, which Petitioner readily admitted were
not covered by the claims. http://oralarguments.cafc.
uscourts.gov/default.aspx?fl=2019-1846.MP3.
Had either court addressed the issue of preemption
and analyzed the practical effects of the claims as applied
to the real-world market, it would have been compelled to
find the asserted claims eligible. The threshold invalidation
at the pleading stage under Section 101 was inappropriate
and does a complete disservice to the USPTO’s careful
analysis of the same issue. There can be no question that
the asserted claims do not preempt the entire concept
of automated entry. For example, a prospective renter/
buyer could be given a device they later return like a
garage door opener, or a real estate agent may have the
electronic ability to “buzz” persons into the property,
among others. Nor do the claims simply recite the idea of
automated entry with instructions to accomplish it with
a computer. The concerns of Alice and Bilski simply do
not come into play here, and since there is no comparable
risk of preemption, claim 7 of Rently’s patent should have
been found patent-eligible, yet it was not.

21
The Federal Circuit’s failure to focus on the issue
of preemption has resulted in the invalidation of a
legitimate, narrow patent, granted by the USPTO after
consideration of Section 101 and Alice. The courts here
did not “tread carefully,” and instead permitted Section
101 to “swallow all of patent law.” Guidance is desperately
needed to solidify the requirement that preemption must
be analyzed as part of a Section 101 inquiry, and that
where there is no concern of preemption, the exclusionary
principal does not apply.
II. The Application of Section 101 Cannot be Permitted
to Subsume the Patentability Analysis of Section
103 Without the Mandated Safeguards.
Certiorari is further warranted to clarify the
conventionality inquiry of Step Two of Alice. Petitioner
asserts that Step Two can properly be resolved as a
matter of law only where the “facts” are of such historical
prevalence that they are the type courts routinely accept as
a matter of law. This application of Section 101 is consistent
with this Court’s decisions in Alice and Bilski, where
the patent claims were directed to undeniably old ideas,
merely being applied in the modern era on computers,
which were ubiquitous and unquestionably well-known.
If, however, it becomes necessary for a court to delve
deeper into the factual underpinnings of the prior art to
determine how common a particular piece of technology
or method was, or whether each individual element was
known and to what degree, the patent should survive the
eligibility test and instead be analyzed under the separate
patentability requirements. At a minimum, if such factual
inquiries are deemed permissible as part of a Section 101
analysis, the patent holder must be afforded the same

22
protections against hindsight bias as with Section 103,
else Section 101 would be in conflict with this Court’s
ruling in Graham, and subsume the whole of patent law
in contravention of this Court’s instructions in Alice.
In Bilski, this Court instructed that the Federal
Circuit may expand on its Section 101 analysis and fill in
the bounds it did not reach, but did so with the explicit
caveat that any expansion must be consistent with the text
of the Patent Act. See Bilski, 561 U.S. at 613. This is not
what has occurred. Instead, the lack of guidance on how
to assess the bounds of patent eligibility resulted in the
Federal Circuit declaring that Step Two is both a question
of law and fact, but in such a vague manner that courts
now use the Section 101 search for an inventive concept as
a stand-in for Section 103’s inventiveness requirement, but
without the fact intensive inquiries required therein. Most
notably, this conflation of Sections 101 and 103 has removed
a patent owner’s protections against hindsight bias by
permitting courts to determine patentability (under the
guise of patent-eligibility), without any assessment of the
level of skill of one in the art, the scope and content of the
prior art, or secondary considerations of non-obviousness.
Here, this issue is not merely academic because the record
was replete with secondary consideration evidence that
was completely ignored. Clarification of this issue is
desperately needed and concrete rules must be set in place
so that patent owners can be assured their patents are
being evaluated under a consistent set of rules and in a
manner which comports with the Patent Act’s distinction
between patent eligibility and patentability.

23
A.

This Court did not address the issue in Alice
or Bilski.

This Court explained in Alice that a patent survives
Step Two if it contains an “inventive concept” sufficient
to “transform” the claimed abstract idea into a patenteligible application of the idea, and that the mere use
of a “conventional” computer is not sufficient. Alice, 573
U.S. at 221. The concern there, and in Bilski, was that
patentees were avoiding the exclusionary principal by
simply reciting the use of an abstract idea on a computer
or other ubiquitous piece of generic technology, and
saying “perform it.” Yet neither case was intended to be
the demise of all business method and software patents.
See, e.g., Bilski, 561 U.S. at 607 Instead, those cases
appropriately recognized that in the modern era, the use
of computers is so ubiquitous that taking an otherwise
ineligible concept and saying “apply it with computer”
is not enough to convey patent eligibility. See Alice, 573
U.S. at 223; Bilski, 561 U.S. at 607. There was no complex
fact finding required in either case to determine the ideas
were age-old concepts, or that computers were entirely
ubiquitous. As a result, this Court did not have occasion
to parse the bounds of patent eligibility, explain what
constitutes an “inventive concept,” or delineate what
may be considered when determining whether a claimed
element is conventional when not plainly ubiquitous.
Yet it is equally clear that the search for an inventive
concept was not intended to be a stand-in for the Section
103 non-obviousness requirement. This phrase was first
used in Flook, where this Court explained the discovery
of a natural phenomenon “cannot support a patent unless
there is some other inventive concept in its application.”
Flook, 437 U.S. at 594. This Court’s discussion of the

24
issue, however, began by explaining that the issue of
patent eligibility “does not involve the familiar issues of
novelty and obviousness that routinely arise under §§ 102
and 103 when the validity of a patent is challenged.” Id. at
588. And this has been a consistent theme throughout
this Court’s Section 101 jurisprudence. See, e.g.,
Diamond v. Diehr, 450 U.S. at 191 (1981) (Although “it
may later be determined that the [patented] process is
not deserving of patent protection” due to “novelty under
§ 102 or nonobviousness under § 103. A rejection on either
of these grounds does not affect the determination that
respondents’ claims recited subject matter which was
eligible for patent protection under § 101.”); Bilski, 561
U.S. at 624 (Stevens, J., concurring) (Observing that “[g]
iven the many moving parts at work in the Patent Act, there
is a risk of merely confirming our preconceived notions of
what should be patentable or of seeing common attributes
that track ‘the familiar issues of novelty and obviousness’
that arise under other sections of the statute but are not
relevant to § 101.”) In Alice, this Court reiterated the
importance of maintaining separation between the issues
of patent eligibility and patentability, explaining that
courts should “tread carefully” to avoid the application
of Section 101 from subsuming other sections of the
Patent Act. Alice, 573 U.S. at 217. Put another way, the
inventive concept inquiry was clearly not intended to be a
substantive assessment of the overall patentability of an
invention, but merely a speedbump designed to remove
from eligibility only those patents that claim a mere idea
implemented with thoroughly ubiquitous technology, such
as a computer. Once a patent claims more than that, or is
narrower in scope than the idea itself, it should survive
and proceed to be analyzed under the remaining sections
of the Act.

25
B. The Federal Circuit’s conflation of Sections 101
and 103 is improper.
Although this Court authorized the Federal Circuit
to expand upon the Section 101 analysis to fill in gaps
that it did not reach, it did so with the caveat that any
expansion must be consistent with the Patent Act, and of
course, in line with this Court’s rulings on the issue. See
Bilski, 561 U.S. at 613. That requires, among other things,
maintaining Section 101 as a speedbump test aimed at
removing only those patents that claim mere ideas or
ideas implemented on ubiquitous technology, as well as
maintaining the distinction between patent eligibility
and patentability. It was not an invitation, on a judge-byjudge basis, to decide what subject matter is and is not
patentable based on mere whim where the patent claims
are not directed to the idea itself. The Federal Circuit has
expanded the analysis to such a degree that it subsumes
the factual analysis of patentability in Section 103, but
without any of the requisite protections against hindsight
bias. As a result, Section 101 is no longer accomplishing
the goal of Alice and Bilski, but is being used to invalidate
legitimate inventions, including patents that have been
thoroughly analyzed by the USPTO in light of this Court’s
decisions and the related guidance.
Notably, this is not a new phenomenon – the
conf lation of Section 101 with other sections of the
Patent Act has been prevalent for years. For example,
in 2015 Judge Newman of the Federal Circuit explained
that a “pragmatic analysis of § 101 is facilitated by
considerations analogous to those of §§ 102 and 103.”
Internet Patents Corp. v. Active Network, Inc., 790 F.3d
1343, 1347 (Fed. Cir. 2015). Similarly, Judge Bryson

26
recently recognized that the majority was improperly
conflating the provisions of the Patent Act. There, in his
dissent-in-part Judge Bryson criticized the majority’s
decision that a particular claim was ineligible, stating:
Contrary to the majority’s suggestion, patent
eligibility under section 101 does not depend on
whether the patentee “invented new networking
hardware or software.” That determination is
one of novelty, not abstractness. While the
majority may well be correct about the absence
of novel features in the claims of the ’747
patent . . . the question “whether a particular
invention is novel is ‘wholly apart from whether
the invention falls into a category of statutory
subject matter.’”
Bridge & Post, Inc. v. Verizon Commc’ns, Inc., 778 F.
App’x 882, 897 (Fed. Cir. 2019).
While the Federal Circuit rarely admits to conflating
the test the way it did in the aforementioned cases, the
issue has been sufficiently prevalent that numerous
commentators have taken note. In 2017, one commentator
observed that “[a]lthough the [Supreme] Court may have
intended a distinction between inventiveness under Section
101 and Section 103, the lower court cases superseding
Alice illustrate that the term has caused patent eligibility
and obviousness to merge into one analysis.” Lewis,
Paxton M. (2017) “The Conflation of Patent Eligibility
and Obviousness: Alice’s Substitution of Section 103,”
Utah OnLaw: The Utah Law Review Online Supplement:
Vol. 2017: No. 1, Article 1, https://dc.law.utah.edu/cgi/
viewcontent.cgi?article=1000&context=onlaw at p. 31.

27
Numerous others have cited this as a basis for
attempting to alter the text of Section 101 itself during
congressional testimony. See, e.g., Testimony of Manny
Schecter, https://www.judiciary.senate.gov/imo/media/
doc /Schecter%20Testimony.pdf (“Subject matter
eligibility determinations “should not be conflated with
the novelty and non-obviousness concerns of sections
102 and 103.”); Testimony of Michael M. Rosen, https://
w w w.judiciary.senate.gov/imo/media/doc/Rosen%20
Testimony1.pdf (The current application of Section 101
has “led examiners and courts down the primrose path
of conflating novelty, obviousness, and eligibility.”);
Testimony of Kimberly Chotkowski, https://www.judiciary.
senate.gov/imo/media/doc/Chotkowski%20Testimony.pdf
(“InterDigital believes removing ‘new’ from 35 USC § 101
is an effective and efficient solution for putting an end to
the conflation of 35 USC § 101 with 35 USC §§ 102/103.”)
Even former Chief Judge of the Federal Circuit Paul
Michel has criticized the court for twisting Section 101
from a “threshold eligibility test” into a “remarkably
complex” test encompassing everything from novelty, to
enablement, and even obviousness. Judge Paul Michel
and John Battaglia, New Enablement-Like Requirements
for 101 Eligibility, IPWatchDog (Aug. 19, 2020), https://
www.ipwatchdog.com/2020/08/19/new-enablement-likerequirements-101-eligibility-aam-v-neapco-takes-caselaw-context-far-part/id=124433/. As explained by Judge
Michel, the Federal Circuit expanded the Section 101
analysis to the point that “‘inventive concept’ began to
resemble non-obviousness, increasingly merging section
101 with section 103.” Paul R. Michel, Patent Eligibility
from Mayo to American Axle and Beyond, FedCircuitBlog
(Aug. 3, 2020), https://fedcircuitblog.com/2020/08/03/
guest-post-patent-eligibility-from-mayo-to-americanaxle-and-beyond/.

28
The problem with this conflation is Sections 101 and
103 serve entirely different purposes. In contrast to the
speedbump test of Section 101, Section 103 is a pro-patent
provision in that it forbids invalidating patents through
hindsight. Graham, 383 U.S. at 17–18. It is all too easy
to view a solution as straightforward, once one has been
exposed to it. As a protection against such hindsight,
Section 103 contains requirements that limit the inquiry
to what was known at the time, to “give light to the
circumstances surrounding the origin of the subject
matter sought to be patented.” Id. These include an express
requirement of showing a clear and convincing motivation
to combine, as well as an analysis of the scope and content
of the prior art, and level of ordinary skill in the art.
Id.; KSR Int’l Co. v. Teleflex Inc., 550 U.S. 398, 418 (2007).
Section 103 also requires examination of secondary
consideration evidence to make sure real-world factors
are considered when making patentability determinations,
and to assist the trier of fact in putting themselves in
the mindset of someone at the time of the invention,
without the benefit of hindsight. See Graham, 383 U.S.
at 17–18. For example, even though an idea might seem
simple after the fact, it is nonetheless patentable where
there is commercial success tied to the claimed invention,
showing that if the claimed combination were obvious,
someone would have previously commercialized it. See
id. Or, where there is skepticism in the market, it too
demonstrates that the claimed solution was not obvious.
See id. These are all important factual inquiries that
are a central part of the 103 analysis, so as to “guard
against slipping into use of hindsight” and “resist the
temptation to read into the prior art the teachings of
the invention in issue.” Graham, 383 U.S. at 36. Even
the Federal Circuit has on occasion recognized the

29
difference in the scope of these statutes, but that has
not avoided its frequent conflation of the two. See, e.g.,
Berkheimer v. HP Inc., 881 F.3d 1360, 1369 (Fed. Cir.
2018).
Technically, conflating these two statutes would not
pose such a dire problem if they were fully conflated – i.e.,
if Section 103 was being applied in an identical manner,
just under a different name. Yet despite frequently
importing a quasi-obviousness inquiry into Section 101,
the Federal Circuit has, in all but the rarest circumstance,
failed to also incorporate the pro-patent aspects of that
statute. One rare exception is Data Engine, where the
Federal Circuit incorporated a Section 103 obviousness
test into the Section 101 analysis, yet did so in a way that
also incorporated secondary indicia of non-obviousness
as support for eligibility. There, the Court focused on
the “commercial embodiment” of the claimed invention,
how it “revolutionized” the industry, the “state of the
art at the time of the invention . . . evidencing the
significance of the claimed methods,” and the fact
that the “invention was applauded by the industry.”
Data Engine Techs. LLC v. Google LLC, 906 F.3d 999,
1004-1005, 1008 (Fed. Cir. 2018). Certainly, these are the
same factors used to avoid hindsight bias in a Section
103 analysis. And ultimately, the Court found that claim
patent-eligible. Id. at 1011. While Petitioner does not
believe such a conflation of Sections 101 and 103 is proper,
guidance is needed on this issue to ensure that if the
Section 101 analysis is deemed to involve a factual inquiry
into how well known or routine a claim element was, the
requisite secondary indicia are also considered, as they
were in Data Engine, to “guard against slipping into use
of hindsight” when essentially deciding the patentability
of an invention. See Graham, 383 U.S. at 36.

30
C.

The Courts failed to properly analyze the
eligibility of Rently’s patent.

Unfortunately for Petitioner, when the Federal Circuit
conflated the issues of patent eligibility and patentability
in this case, it did not go as far as in Data Engine, and
failed to also incorporate Section 103’s protections against
hindsight bias. Had it either ended the analysis when
it became clear that the claimed technology was not
ubiquitous (as it should have), or conducted a complete
factual analysis including protections against hindsight
bias, it would have been compelled to find Rently’s patent
eligible, as did the USPTO.
Instead, both courts involved appear to have
simply determined that the claimed invention did
not feel inventive enough. Specifically, in finding the
asserted claims ineligible, the district court stated the
claims merely require “generic computer components,”
and based its decision on its own understanding of
non-automatic lockboxes from decades ago. Appx10;
Appx396. Questioning by the Federal Circuit indicated
a similar finger-to-the-wind test of patentability overall
rather than a focus on eligibility, with one justice
injecting a belief that Rently did not invent smart
lockboxes. http://oralarguments.cafc.uscourts.gov/default.
aspx?fl=2019-1846.MP3. But those inquiries are the
domain of novelty and obviousness, not patent-eligibility,
and certainly could not be decided contrary to Rently
at the pleading stage. There was nothing in the record
regarding who invented technology-enabled lockboxes
capable of responding to unique time limited codes, to
what degree they were common or ubiquitous, or even if
they existed, what changes were required to make them

31
work in the claimed invention. Nor was there anything in
the record demonstrating that the use of such a lockbox
to permit automated entry to a predetermined location
at a predetermined time was routine or conventional in
the real estate industry. In fact, the record indicated the
exact opposite. Rently’s Amended Complaint contained
numerous plausible factual allegations that this method
and the components utilized therein were neither routine,
conventional, nor well-known. Indeed, Rently alleged a
generic lockbox could not enable “automated entry” into a
property because it could not recognize “automated entry
information.” As a result, it could not perform the very
specific filtering function “to facilitate automated entry
to the property.” Appx409.
Accepting these factual allegations and Rently’s
proposed construction of the claims, as the courts were
obligated, is all that was required for Rently to survive
a motion to dismiss. See Berkheimer, 881 F.3d 1360;
Cellspin Soft, Inc. v. Fitbit, Inc., 927 F.3d 1306 (Fed. Cir.
2019). This, by definition, should have moved the case
beyond the speedbump of Section 101, and into the realm
of Section 103, where Rently would have been afforded
the requisite protections against hindsight bias. No such
analysis was conducted by the District Court, however,
nor apparently by the Federal Circuit despite allegations
describing how the general concept of automated entry
faced widespread skepticism in the industry, how the
invention overcame these concerns and ultimately received
significant commercial success and praise for its unique
invention, and as a result, was copied by others in the
industry. (See supra at 5-6.)

32
These are all relevant considerations pointing away
from Rently’s invention being obvious, demonstrating that
the claimed invention is significantly more than the alleged
abstract idea itself, and which would have been considered
under Section 103. If such factual inquiries are indeed
part of the Step Two analysis, then they should have been
considered, and the decision could not be made contrary to
Rently at the pleading stage. And if the question is purely
a legal one, then once there was a basic showing that the
technology involved was not so ubiquitous that it may be
found conventional as a matter of law, the analysis should
have moved to the separate issue of patentability under
Sections 102 and 103.
III. The Expansion of Section 101 Disproportionately
Hurts Small Businesses.
Broadening the scope of Section 101 beyond its
original intentions, whether by ignoring the issue of
preemption or conflating eligibility with patentability, is
not likely to affect all equally. Rather, a study conducted by
Stanford law school professors of every District Court and
Federal Circuit decision on the issue of patent eligibility
from mid-2014 to mid-2019 has shown that Section 101
disproportionately affects solo-inventors and inventorled businesses, like Rently. The researchers determined
that “the entities most likely to lose their patents at
this stage are not patent trolls but individual inventors
and inventor-started companies.” Mark A. Lemley and
Samantha Zyontz, Does Alice Target Patent Trolls?,
SSRN (Mar. 26, 2020), https://ssrn.com/abstract=3561252
at p. 2 (“Lemley”). According to the study, patents were
invalidated in 57.4% of “product company decisions,”
63.8% of NPE decisions, and 73.4% of “individual inventor

33
and inventor started company decisions.” Lemley at 35.
And the story “gets even worse for individual inventors”
when removing cases that merely rejected a Section 101
challenge as premature – individual inventors’ patents
survived at less than half the rate of NPE’s and larger
corporations – succeeding only 13.8% of the time. Lemley
at 35-36. Certainly, some of those patents deserved to
be invalidated, but every time a legitimate invention
is mistakenly invalidated under Section 101, it is more
likely the Rentlys of the country that are harmed. As
one industry organization recently observed, the Federal
Circuit’s “dysfunction has been especially harmful to
small businesses and startups.” Eileen McDermott, Judge
Paul Michel to Patent Masters Attendees: It’s Time to
Wake Up to Preserve Our Patent System, IPWatchDog
(Mar. 16, 2020), https://www.ipwatchdog.com/2020/03/16/
judge-paul-michel-time-wake-preserve-patent-system/
id=119874/.
To make matters worse, small businesses need a
properly functioning patent system the most. While most
large corporations can afford numerous patents over every
aspect of a product or method, and are therefore somewhat
protected from an improper invalidation, smaller
companies with limited funds may be more likely to seek
out just a single patent. When that patent is invalidated,
the small company loses its entire protection. Large
companies are also more likely to control sufficient market
power to protect their business if a patent is mistakenly
invalidated. If a company such as Zillow, a dominant player
in the online real estate industry, were to lose a patent
covering a unique feature of its service, it is unlikely
that another company could extract any meaningful
number of its customers simply by copying that feature.

34
Zillow’s market share and name recognition are all the
protection it needs. In contrast, if a small company such
as Rently were to lose a patent over the feature that
makes it unique, the Zillows of the world could implement
that same feature and in short order steal all of Rently’s
well-earned goodwill and customer base purely because
of the scope of their brand recognition. Studies have also
shown that patent invalidation disproportionately affects
the future research and innovation of small entities as
compared to large corporations. Alberto Galasso and
Mark Schankerman, Patent rights and innovation by small
and large firms, VOX CEPR Policy Portal (Jan. 7, 2016),
https://voxeu.org/article/patent-rights-and-innovationsmall-and-large-firms. It is therefore unsurprising
that trade and policy associations representing large
corporations, including Amazon, Facebook, Google, and
Microsoft frequently oppose any attempt to clarify or
modify the current approach to Section 101. See, e.g., Error
404: Alice And Section 101 Of The Patent Act, Internet
Association (May 1, 2017), https://internetassociation.org/
blog/160204034428-error-404-alice-and-section-101-ofthe-patent-act/#; Testimony of Dr. William Jenks, https://
w w w.judiciary.senate.gov/imo/media/doc/Jenks%20
Testimony.pdf.
When the patent system fails and legitimate rights
are revoked, it fails the small businesses that need the
system the most, to the benefit of large corporations. It
is therefore critical that the Court grant this Petition,
complete the work it began with Alice, and clarify the
bounds of the exclusionary principal of Section 101.

35
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,
Stephen Z. Vegh
Vegh IP Legal
1240 Rosecrans Ave.,
Suite 120
Manhattan Beach, CA 90266
(310) 980-7440
svegh@veghlaw.com

Rudolph A. Telscher, Jr.
Counsel of Record
K ara R. Fussner
Husch Blackwell LLP
190 Carondelet Plaza, Suite 600
St. Louis, MO 63105
(314) 480-1500
rudy.telscher@huschblackwell.com
Stephen R. Howe
Husch Blackwell LLP
555 East Wells Street, Suite 1900
Milwaukee, WI 53202
(414) 273-2100
steve.howe@huschblackwell.com

APPENDIX

1a
Appendix A OF THE UNITED
APPENDIX A — JUDGMENT
STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT, FILED MARCH 9, 2020
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2019-1846
CONSUMER 2.0, INC., DBA RENTLY,
Plaintiff-Appellant,
v.
TENANT TURNER, INC.,
Defendant-Appellee.
Appeal from the United States District Court for the
Eastern District of Virginia in No. 2:18-cv-00355-RGDDEM, Senior Judge Robert G. Doumar.
JUDGMENT
This Cause having been heard and considered, it is
Ordered and A djudged:
P er Curiam (Reyna , Chen, and Hughes , Circuit
Judges).
AFFIRMED. See Fed. Cir. R. 36.

2a
Appendix A
Entered by Order of the Court
March 9, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

3a
AppendixAND
B ORDER OF THE
APPENDIX B — OPINION
UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF VIRGINIA, NORFOLK
DIVISION, FILED APRIL 4, 2019
IN THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF VIRGINIA
NORFOLK DIVISION
CIVIL NO. 2:18cv355
CONSUMER 2.0, INC. D/B/A RENTLY,
Plaintiff,
v.
TENANT TURNER, INC.,
Defendant.
April 4, 2019, Decided
April 4, 2019, Filed
Judge: Robert G. Doumar, Senior United States
District Judge.
OPINION AND ORDER
This matter comes before the Court on a Motion for
Leave to File Amended Complaint (“Motion for Leave”)
filed by Consumer 2.0, Inc., d/b/a Rently (“Plaintiff’), ECF
No. 24, as well as Plaintiff’s Motion to Alter or Amend
Judgment, ECF No. 26. The issue before the Court is

4a
Appendix B
whether Plaintiff should be granted post-judgment leave
to file its Proposed Amended Complaint, ECF No. 24-1,
Ex. A. If so, the Court must grant Plaintiff’s Motion to
Alter or Amend, ECF No. 26, and vacate the judgment
entered on November 1, 2018. ECF No. 23. For the reasons
set forth below, the Court DENIES both of Plaintiff’s
motions. ECF Nos. 24, 26.
I.

BACKGROUND
A.

PROCEDURAL HISTORY

On July 3, 2018, Plaintiff filed a Complaint against
Tenant Turner, Inc. (“Defendant”) alleging patent
infringement of the ’590 patent, “Automated Entry.”
ECF No. 1. On August 7, 2018, Defendant filed its Motion
to Dismiss along with its Memorandum in Support, to
which Plaintiff filed its Response in Opposition (“Resp.”)
on August 28, 2018. ECF Nos. 12, 13, 16. Defendant filed
its Reply to Plaintiff’s Opposition on September 4, 2018
(“Reply”). ECF No. 17. The parties appeared before the
Court for a hearing on such matter on October 15, 2018.
ECF No. 20.
On November 1, 2018, the Court entered an Order
granting Defendant’s Motion to Dismiss without prejudice,
holding that the asserted claims of the ’590 patent at issue
are invalid because they are directed to an abstract idea
and thus ineligible for patent protection under 35 U.S.C.
§ 101. See Opinion and Order, ECF No. 22. Applying
the analysis for determining patent eligibility set forth
by the Supreme Court in Alice Corp. Pty. v. CLS Bank

5a
Appendix B
International, 573 U.S. 208, 134 S. Ct. 2347, 2354, 189
L. Ed. 2d 296 (2014), the Court held that the ’590 patent
is merely an abstract idea; the elements of the claim,
considered both individually and as a combination, do not
add anything inventive which would transform the claim
into a patent-eligible concept; and there were no factual
issues precluding the Court from dismissing the matter
without prejudice. ECF No. 22 at 6-19.
On November 29, 2018, Plaintiff filed the instant
Motion for Leave along with its Memorandum in Support,
ECF Nos. 24 & 25, in addition to its Motion to Alter or
Amend and Memorandum in Support, ECF Nos. 26 &
27. Attached to its Motion for Leave, Plaintiff filed its
Proposed Amended Complaint, which contains thirty-five
new paragraphs. See Proposed Am. Compl., ECF No. 241, Ex. A, ¶¶ 9-44.
On December 12, 2018, Defendant filed its Opposition
to Motion for Leave (“Opposition to Motion for Leave”),
ECF No. 28, and its Opposition to Motion to Alter or
Amend (“Opposition to Motion to Alter or Amend”), ECF
No. 29. Plaintiff filed its Reply to Plaintiff’s Opposition
to Motion for Leave (“Plaintiff’s Reply”), ECF No. 30, on
December 18, 2018. The Court held a hearing on these
matters on March 26, 2019. ECF No. 33. These matters
are now ripe for adjudication.
B. PATENT-IN-SUIT
As in its initial Complaint, Plaintiff alleges in its
Proposed Amended Complaint that Defendant infringes

6a
Appendix B
claims 7, 8, 9, 10, 11, 12, 13, 14, 15, and 16 of the ’590 patent.
See Compl., ECF No. ¶¶ 17-35; Proposed Am. Compl., ECF
No. 24-1, Ex. A ¶¶ 45-76. According to the ’590 patent’s
description, the “system provides automated entry to a
prospective buyer or renter of properties” and “automates
the tour registration process,” which “eliminates the
need to arrange a tour with an agent or landlord” arid
“eliminates the need for an on-site representative of the
property.” ’590 patent, ECF No. 24-2, Ex. 1 at 19. The
patent identifies several entities that perform the patent’s
method including (1) a lockbox or automated door lock, (2)
a server, (3) an application interface, and (4) a portable
device. See ’590 patent, ECF No. 24-2, Ex. 1.
The process of “automated entry” is set forth in Claim
7 of the patent, which is representative:
making properties available for viewing to
invited visitors;
providing an application interface of an
application running on a computing system to a
property manager, the property manager being
a manager, a listing agent or an owner of the
property, the application interface prompting
the property manager to enter a visitor name
and contact information for a visitor, wherein
upon receipt of the visitor name and contact
information, the application provides the
visitor with an invitation to receive automated
entry information including code information
that is valid during a specified period of time
so that the visitor can enter a property by

7a
Appendix B
themselves, the invitation being delivered
to the visitor electronically, the invitation
being applicable only to the property and the
invitation requesting identification from the
visitor;
placing a lock box or an automated door lock at
or near each property;
upon the application receiving and confirming
identification information for the visitor,
providing, by the application, automated entry
information to the visitor that allows the visitor
to enter the property, the automated entry
information including code information that is
valid during the specified period of time;
upon the visitor providing the code information
to the lock box or the automated door lock at
the property within the specified period of time,
the lock box or the automated door lock opening
to facilitate automated entry to the property;
tracking visitor activities at the properties; and
making information about the properties
available within a user interface.
’590 patent, ECF No. 24-2, Ex. I at 23. As noted in
the Court’s prior Order, Claim 7 is the only independent
claim asserted in the Complaint. ECF No. 22 at 3. The
dependent claims (8-16) build on this basic framework. Id.

8a
Appendix B
The patent-at-issue was initially rejected by the
patent examiner as “directed to non-statutory subject
matter because the claim(s) as a whole, considering all
claim elements both individually and in combination, d[id]
not amount to significantly more than an abstract idea.”
ECF No. 13-1, Ex. 2 at 4. The patent examiner specifically
stated that claims 1, 6, and 12, which Plaintiff notes later
became representative Claim 7, were rejected because
they were “directed to an abstract idea.” Id.; Resp., ECF
No. 16 at 18. In response to the initial rejection, Claim
12 was amended, in part, to include the addition of the
steps of “placing a lock box or an automated door lock
at or near the property” and such device “opening to
facilitate automated entry to the property” in response
to the “visitor providing code information to the lock box
or automated door lock within the specified period of
time.” ECF No. 13-3, Ex. 3 at 3. The applicant also argued
that these additions consisted of “physical (not abstract)
action[s]”. Resp., ECF No. 16 at 19 (citing ECF No. 16-3,
Exhibit C at 2). Following these amendments, the patent
examiner found that “[a]pplicant’s response by virtue
of amendment to claims has overcome the examiner’s
rejection under 35 U.S.C. § 101.” ECF No. 13-4, Ex. 4 at 4.
II. STANDARD OF REVIEW
The Fourth Circuit has set forth the procedure for
reviewing a post judgment motion for leave to amend
under Federal Rule of Civil Procedure 15(a), holding that
a “district court may not grant the post judgment motion
unless the judgment is vacated pursuant to” Federal Rule
of Civil Procedure 59(e). Laber v. Harvey, 438 F.3d 404, 427

9a
Appendix B
(4th Cir. 2005). However, “[t]o determine whether vacatur
is warranted,” “the court need not concern itself with” the
legal standard for Rule 59(e). Hart v. Hanover County
Sch. Bd., 495 F. App’x 314, 315 (4th Cir. 2012) (internal
quotations omitted). Instead, “a post-judgment motion to
amend is evaluated under the same legal standard as a
similar motion filed before judgment was entered — for
prejudice, bad faith, or futility.” Laber, 438 F.3d at 427.
Therefore, this Court’s considers whether the Motion
for Leave to File Amended Complaint should be granted
under the same standard as if such motion was made
before judgment was entered. Under this standard, the
Motion for Leave should be denied if “the amendment
would be prejudicial to the opposing party, there has
been bad faith on the part of the moving party, or the
amendment would be futile.” Hart, 495 F. App’x at 315
(citing Fed. R. Civ. P. 15(a)) (internal quotations omitted).1
The Court must examine the issue of futility under
the lenient standard of Rule 15(a), freely giving leave to
amend “when justice so requires.” AdvanFort Co. v. Intl
Registries, Inc., No. 1:15-ev-220, 2015 U.S. Dist. LEXIS
90912, 2015 WL 4254988, at *5 (E.D. Va. July 13, 2015).
However, as Plaintiff notes, “[a]n amendment is futile
if the amended claim would fail to survive a motion to
1. Plaintiff argues that granting the Motion to Amend would
not prejudice the Defendant, nor was the Motion to Amend made
in bad faith. ECF No. 25 at 2-3. The Court agrees that issues
of “prejudice” and “bad faith” are not apparent here. As such,
the entirety of the Court’s analysis hinges on whether allowing
amendment to the complaint would be futile.

10a
Appendix B
dismiss pursuant to Federal Rule of Civil Procedure
12(b)(6).” ECF No. 25 at 4 (citing Hall v. Greystar Mgmt.
Servs., L.P., 637 F. App’x 93, 97 (4th Cir. 2016)); see also
Perkins v. United States, 55 F.3d 910, 917 (4th Cir. 1995).
As such, the Court must apply the same standard of legal
sufficiency as is applied under Rule 12(b)(6). Therefore,
the Court applies the same analysis here as it did in its
Order granting Defendant’s Motion to Dismiss, ECF No.
22, except that the Court will now consider the thirty-five
new paragraphs in the Proposed Amended Complaint,
ECF No. 24-1.
As noted in this Court’s prior Order, ECF No. 22, the
standard for determining whether a complaint is sufficient
to survive a 12(b)(6) Motion to Dismiss is as follows:
To survive a motion to dismiss, the facts alleged
in the complaint “must be enough to raise a
right to relief above a speculative level” and
must be sufficient “to state a claim to relief that
is plausible on its face.” Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 547, 127 S. Ct. 1955,
167 L. Ed. 2d 929 (2005). Where the claim
is one of patent infringement, there must be
“sufficient factual allegations and plausibility
of those allegations” to survive a motion to
dismiss. Bel IP LLC v. BoomerangIt Inc., No.
2:11cv188, 2011 U.S. Dist. LEXIS 164358, 2011
WL 13228482, at *5 (E.D. Va. Sept 27, 2011).
In resolving a Rule 12(b)(6) motion, the court
must assume the truth of all facts alleged in the
complaint and construe the factual allegations

11a
Appendix B
in favor of the non-moving party. Robinson v.
Am. Honda Motor Co., 551 F.3d 218, 222 (4th
Cir. 2009). But the court is not bound by the
complaint’s legal conclusions. Ashcroft v. Iqbal,
556 U.S. 662, 678, 129 S. Ct. 1937, 173 L. Ed.
2d 868 (2009).
ECF No. 22 at 4. Further, while the Court must
“accept all of the allegations contained in a complaint as
true, that tenet is inapplicable to legal conclusions, and
threadbare recitals of the elements of a cause of action supported by mere conclusory statements - do not suffice.”
Hall, 637 F. App’x 93 at 97.
III.

ARGUMENTS AND PRIOR OPINION

Plaintiff argues that allowing the Proposed Amended
Complaint would not be futile, representing that the
Proposed Amended Complaint contains allegations that,
taken as true and viewed in favor of the Plaintiff, “would
directly affect this Court’s patentability analysis.” ECF
No. 25 at 2, 4. At minimum, Plaintiff argues, these
allegations “raise factual disputes underlying the § 101
analysis.” Id.
First, Plaintiff argues, as it did at the motion to
dismiss stage, that the asserted claims of the ’590
patent are not abstract. ECF No. 25 at 5. Second,
Plaintiff argues that the newly asserted allegations in
the Proposed Amended Complaint “impact whether the
terms ‘automated entry,’ ‘automated entry information,’
and/or ‘identification information’ constitute an inventive

12a
Appendix B
concept, along or in combination with other elements,
sufficient to survive an Alice/Mayo analysis.” ECF No.
25 at 2, 25. Finally, Plaintiff argues that “the asserted
claims refer to a method or system of providing automated
entry to properties that is not routine, conventional, or
well understood.” ECF No. 25 at 17 (internal quotations
omitted).
As Defendant notes, “[t]he Court has already
considered — and rejected — the majority of [Plaintiff’s]
arguments” in its initial motion to dismiss analysis. ECF
No. 28 at 2. Indeed, in comparing Plaintiff’s Memorandum
in Support of Motion for Leave to File A mended
Complaint, ECF No. 25, with Plaintiff’s Opposition to
Defendant’s Motion to Dismiss, ECF No. 16, many of the
arguments here are substantially similar, if not identical
to those previously asserted by Plaintiff. Compare ECF
No. 25 at 5-30, with ECF No. 16 at 10-28 (both containing
the following arguments: the asserted claims are not
abstract, the prosecution history mitigates against Alice,
Claim 7 is rooted in technology, the human mind alone
could not perform Claim 7, Claim 7 purports to improve
a technological process, the asserted claims describe
an inventive concept, this Court’s Asghari decision
does not control, and factual issues preclude a finding of
ineligibility).
This Court rejected these same arguments in its
extensive Opinion and Order entered November 1, 2018.
ECF No. 22. First, the Court found that the patent was
ineligible under step one of the Alice test for determining
patent eligibility, because the “claims at issue are directed

13a
Appendix B
to an abstract idea.” ECF No. 22 at 9; see also Alice,
134 S. Ct. at 2355-56. Distilled to their essence, “the
claims use generic computing devices and techniques to
provide automated entry to a property without human
interaction.” Id. The Court found that “[t]here is nothing
in the language of the [ ] elements” of Claim 7 “indicating
that the claims at issue here are directed to any specific
improvement in computer functionality or capabilities.” Id.
at 11. Rather, the claims at issue “merely coordinate preexisting and generic computer components to implement
an abstract idea.” Id. at 11-12. They “‘simply add[]’ the
coordination of these ‘conventional computer components’
to a ‘well-known business practice.’” Id. at 10-11 (quoting
Enfish LLC v. Microsoft Corp., 822 F.3d 1327, 1338 (Fed.
Cir. 2016)).
The Court also found that the second step of the Alice
test was unsatisfied because “the elements of the claim at
issue, both individually and as an ordered combination,
do not add anything inventive which would transform the
claim into a patent-eligible concept.” Id. at 17. The claim
limitations did not “‘involve more than performance of
well-understood, routine, [and] conventional activities
previously known to the industry.’” Id. at 14 (quoting
Berkheimer v. HP, Inc., 881 F.3d 1360, 1367 (Fed. Cir.
2018)). Further, the claims at issue did not “purport to
improve the functionality of a computer or overcome
existing technology-based problems.” Id. at 15.
Finally, the Court determined that there were no
factual questions precluding a finding of patent ineligibility.
ECF No. 22 at 17-19. First, the Court found that it was

14a
Appendix B
“not evident from the ’590 patent specifications that
there is any inventive feature used in an unconventional
manner[,]” nor was there anything “in the pleadings to
fill this gap in the specifications.” ECF No. 22 at 18. “The
only alleged unconventional features of Plaintiff’s claims
[we]re that the ‘elements set forth in the ’590 patent
both individually and in combination represent a novel
approach for enabling an invited visitor to self-register
and self-access a property’ through the ‘coordination
of operation of a server, technology-enabled lock box,
application interface, and mobile device.’” ECF No. 22 at
19 (citing Resp., ECF No. 16 at 24). The Court found that
“this simply restates what we have already determined is
an abstract idea and describes the implementation of the
abstract idea through conventional computer components.”
Id. (internal quotations omitted).
Nevertheless, the Court has considered each of
Plaintiff’s arguments anew in light of the allegations set
forth in the Proposed Amended Complaint containing
Plaintiff’s original allegations in addition to thirty-five
new paragraphs.
IV. ANALYSIS
A.

The Proposed A mended Complaint does not
Include Concrete Factual A llegations that
A lter the Court’S A nalysis Under Alice Step
One.

The claim language of the patent itself must disclose
the nature and extent of the patent. Step one of Alice

15a
Appendix B
requires the Court to determine whether the claims
of the ’590 patent describe a patent-ineligible concept:
laws of nature, natural phenomena, or abstract ideas.
Alice, 134 S. Ct. at 2355. Plaintiff correctly notes that
such “inquiry must focus on the language of the asserted
claims themselves.” ECF No. 25 at 5 (quoting Synopsys,
Inc. v. Mentor Graphics Corp., 839 F.3d 1138, 1149 (Fed.
Cir. 2016); see also Accenture Global Servs. v. Guidewire
Software, Inc., 728 F.3d 1336, 1345 (Fed. Cir. 2013)
(admonishing that “the important inquiry for a § 101
analysis is to look at the claim.”); Voip-Pal.Com, Inc., v.
Apple Inc., 375 F. Supp. 3d 1110, 2019 WL 1332762, at *25
(N.D. Cal. 2019) (“Alice’s step one inquiry must focus on
the claim language.”). Therefore, this Court focuses its
analysis on the claim language, as it did at the motion to
dismiss stage.
In its Order entered on November 1, 2018, the Court
thoroughly analyzed each element of Claim 7 of the ’590
patent, individually and as an ordered combination, and
found that the patent is directed to an abstract idea. See
ECF No. 22 at 6-14. The Court noted that “distilled to its
essence,” the ’590 patent “use[s] generic computing devices
and techniques to provide automated entry to a property
without human interaction.” ECF No. 22 at 9. Despite the
electronic setting, the Court found that the ’590 patent is
“‘directed to a common method’ (automation) ‘for solving
an old problem’ (the problem of how to provide an invited
visitor entry to a property fora specified period of time).”
Id. at 10 (citing Asghari-Kamrani v. United Servs. Auto.
Ass’n, No. 2:15cv478, 2016 U.S. Dist. LEXIS 87065, 2016
WL 3670804, at *4 (E.D. Va. July 5, 2016)).

16a
Appendix B
Plaintiff’s Proposed Amended Complaint does nothing
to change the Court’s analysis at Alice step one. As noted,
the majority of Plaintiff’s argument in support of its
position that the asserted claims of the ’590 patent are not
abstract are merely restated from Plaintiff’s arguments
at the original motion to dismiss stage. Compare ECF
No. 25 at 4-24, with ECF No. 16 at 16-26. To the extent
Plaintiff asserts additional arguments in its Memorandum
in Support of its Motion for Leave to File Amended
Complaint, ECF No. 25, such arguments do not change the
plain language of Claim 7, which sets forth the ’590 patent.
Neither do the thirty-five additional paragraphs Plaintiff
has inserted into its Proposed Amended Complaint affect
step one or Claim 7. See Proposed Am. Compl., ECF No.
24-1, Ex. A, ¶¶ 9-44.
For example, Plaintiff supplements its previously
asserted argument that the ’590 patent is directed to
an improvement in a technological process and asserts
that the steps of Claim 7 are directed to the improved
functioning of a technology-enabled lockbox. ECF No.
25 at 13-18.
Unfortunately for the Plaintiff, such improvements
are simply not captured in the language of Claim 7,
which must disclose the nature and extent of the patent.
As the Court already noted, “[t]here is nothing in the
language” of Claim 7 “indicating that the claim at issue
here is directed to any specific improvement in computer
functionality or capabilities.” ECF No. 22 at 11. Instead,
the elements of Claim 7 and the ’590 patent specifications
are “merely directed to the implementation of the abstract

17a
Appendix B
idea of providing automated entry and making properties
available for viewing to invited visitors through generic
computer components, such as an ‘application interface,’ a
“server,” and “a computing system.” ECF No. 22 at 12-11
(citing ’590 patent, ECF No. 1-1, Ex. 1 at 23). This Court
has held that even “very detailed software implementation
guidelines in the patent specifications will not save
systems claims that only contain[ ] generalized software
components arranged to implement an abstract concept
on a computer.” Va. Innovation Scis., Inc., v. Amazon.
com, 227 F. Supp. 3d 582, 594 (E.D. Va. 2017) (internal
quotations omitted). Similarly, “attorney argument in the
complaint cannot save the claims because the purported
improvements have not been captured in the claim
language.” Voip-Pal.com, 375 F. Supp. 3d 1110, 2019 WL
1332762, at *25.
The Court incorporates its previous findings in this
case that based on the plain language of representative
Claim 7 and the specifications of the ’590 patent, the
’590 patent as a whole is directed to the abstract idea
of providing automated entry. As such, allowing the
Proposed Amended Complaint would be futile insofar
as it would not survive a motion to dismiss for patent
ineligibility under step one of Alice. The Court proceeds
to determine whether the allegations in the Proposed
Amended Complaint sufficiently “fill the gap,” such that
the Proposed Amended Complaint would survive a motion
to dismiss under step two of Alice.

18a
Appendix B
B. T h e P r opo sed A m en ded C om pl a i n t d oe s
not I nclude C oncrete Factual A llegations
S ufficient to A lter the C ourt ’s A nalysis
Under Alice Step Two.
The second step of Alice is described as the “search
for an ‘inventive concept.’” Alice, 134 S. Ct. at 2355
(quoting Mayo Collaborative Services v. Prometheus
Laboratories, Inc., 566 U.S. 66, 72-73, 132 S. Ct. 1289,
182 L. Ed. 2d 321 (2012)). This step requires the Court
to “consider the elements of each claim both individually
and ‘as an ordered combination’ to determine whether the
additional elements ‘transform the nature of the claim’
into a patent-eligible application” and “‘ensure that the
patent in practice amounts to significantly more than
a patent upon the [ineligible concept] itself.’” Alice, 134
S. Ct. at 2355 (quoting Mayo, 566 U.S. at 72-73, 78-79).
This step is only satisfied if “the claim limitations involve
more than performance of well-understood, routine, [and]
conventional activities previously known to the industry.”
Berkheimer v. HP, Inc., 881 F.3d 1360,1367 (Fed. Cir. 2018)
(internal quotations omitted).
This Court previously determined that the elements of
Claim 7, “both individually and as an ordered combination,
do not add anything inventive which would transform the
claim into a patent-eligible concept.” ECF No. 22 at 17. It
found that “[t]he functions performed at each . . . step[ ]
[are] purely ‘conventional’ and ‘do[ ] no more than require
[ ] generic computer” components to perform ‘generic
computer functions.’” Id. at 16-17 (quoting Asghari, 2016
U.S. Dist. LEXIS 87065, 2016 WL 3670804, at *5). It

19a
Appendix B
further determined that factual issues did not preclude
a finding of patent ineligibility because the alleged
unconventional features of the ’590 patent “‘simply
restate[d] what we have already determined is an abstract
idea’ and described the implementation of the abstract idea
through conventional computer components.” Id. at 19.
Plaintiff’s main argument is that factual questions
exist precluding dismissal at the Rule 12 stage under
Alice step two, Plaintiff cites heavily to Aatrix Software,
Inc. v. Green Shades Software, Inc., 882 F.3d 1121 (Fed.
Cir. 2018). In Aatrix, the “district court denied, without
explanation, [plaintiff’s] motion to amend its complaint[,]”
which was filed after the court found the claims to be
patent-ineligible under Alice/Mayo. Id. at 1126. The
Federal Circuit reversed the district court’s denial of the
motion to amend. Id. at 1123. The Federal Circuit found
that filing of the proposed amended complaint would not
have been futile because such amended complaint contained
“numerous allegations related to the inventive concepts
present in the claimed form file technology[,]” in addition
to concrete allegations “that individual elements and the
claimed combination are not well-understood, routine, or
conventional activity.” Aatrix, 882 F.3d at 1127-28. There,
the court noted that the amended complaint contained
“concrete allegations regarding the claimed combination’s
improvement to the functioning of the computer.” Id. at
1128. The proposed amended complaint “describe[d] the
development of the patented invention, including the
problems present in prior art” and specifically alleged
“improvements and problems solved by the . . . patented
inventions.” Id. at 1127-28 (the allegations claimed “that

20a
Appendix B
the data file [wa]s directed to an improvement in importing
data from third-party software applications.”).
As Plaintiff notes, allegations in a complaint may
“fill the gap” with facts concerning how the elements or
combination of elements set forth in a claim improve upon
the prior art and are not routine, conventional or wellunderstood. ECF No. 25 at 36 (citing Aatrix, 882 F.3d
at 1128). However, in TriPlay, Inc. v. WhatsApp, Inc.,
the Court granted a motion to dismiss where it was not
evident from the claims and specifications that there was
“any inventive feature...used in an unconventional matter”
and because the “gap in the specification [wa]s not filled
by [Plaintiff’s] pleadings.” No. 13-1703-LPS-CJB, 2018
U.S. Dist. LEXIS 49953, 2018 WL 1479027, at *6, 8-9, 20
(D. Del. Mar. 27, 2018).
Plaintiff arg ues that the Proposed A mended
Complaint sets forth allegations that the claimed
combination improved the functionality of a technologyenabled lockbox. Pls. Reply, ECF No. 30 at 7 (citing
Proposed Am. Compl., ECF No. 24-1, Ex. A ¶¶ 2527). Plaintiff also argues that the Proposed Amended
Complaint contains concrete allegations that the “claimed
combination of a server with a technology-enabled lockbox
and a portable device via an application interface was not
well-understood, routine, or conventional in the rental and
real estate industries at the time Plaintiff filed the ’590
patent.” Id. at 3, 7 (citing Proposed Am. Compl., ECF No.
24-1, Ex. A ¶¶ 9, 14-23, 25-28, 34-44).

21a
Appendix B
The Court is unpersuaded by Plaintiff’s arguments.
Although Plaintiff has inserted thirty-five new paragraphs
into its Proposed Amended Complaint, many of the new
allegations are conclusory and boilerplate. See, e.g.,
Proposed Am. Compl., ECF No. 24-1, Ex. A ¶ 24 (“. . .
Claim 7 of the ’590 patent inherently performs steps that
are specific to the use of computers and a technological
process...”); Id. at ¶ 27 (“[t]he method of Claim 7 . . .
improves both the function of a technology-enabled
lockbox as well as the technological process . . .”); Id.
at ¶ 33 (“Automated entry’ by definition could not itself
be conventional, routine, or well understood.”); Id. at
¶ 49 (wherein Plaintiff has simply added the magic words
“technology-enabled” before the word “lockbox”). Such
conclusory and boilerplate allegations are insufficient to
alter this Court’s prior analysis. See Ashcroft v. Iqbal, 556
U.S. 662, 679, 129 S. Ct. 1937, 173 L. Ed. 2d 868 (2009)
(“[w]hile legal conclusions can provide the framework of a
complaint, they must be supported by factual allegations”);
see also Ipa Techs, Inc. v. Amazon.com, Inc., 352 F. Supp.
3d 335, 349 (D. Del. 2019) (finding that “[t]he majority of
Plaintiff’s new . . . allegations d[id] not alter the Alice Step
Two analysis” because the court was “not required to treat
boilerplate allegations that the claims are directed to new
computer functionality and improvements to technological
processes as true where those allegations contradict the
language of the claims and specification.”).
Accepting as true the Proposed Amended Complaint’s
factual allegations and construing such allegations in
favor of the Plaintiff, the Court finds that such alleged
facts are also insufficient to alter the Court’s analysis

22a
Appendix B
under step two of Alice for the reasons stated below. For
these reasons, allowing the Proposed Amended Complaint
would be futile insofar as it would not survive a motion
to dismiss for patent ineligibility under step two of Alice.
1.

The Proposed Amended Complaint Does Not
Set Forth Concrete Factual A llegations
that the ’590 Patent is D irected to an
Improvement in Computer Functionality
or a Technology-Based Problem.

Plaintiff argues that here, as in Aatrix, “[t]here are
. . . concrete allegations regarding the claimed combination’s
improvement to the functioning of the computer.” ECF No.
25 at 30-31 (quoting Aatrix, 882 F.3d at 1128); see also
Proposed Am. Compl., ECF No. 24-1, Ex. A ¶ 27 (alleging
that Claim 7 “improves both the function of a technologyenabled lockbox as well as the technological process for
showing a property to a visitor.”).
In Aatrix, the amended complaint alleged that
the “invention increased the efficiencies of computers
processing tax forms” and “saved storage space both in
the users’ computers’ RAM . . . and hard disk.” 882 F.3d at
1127 (internal quotations omitted). The complaint further
“allege[d] that the claimed software use[d] less memory,
result[ed] in faster processing speed, and reduce[ed] the
risk of thrashing which makes the computer process
forms more efficiently.” Id. Such concrete allegations were
sufficient to “suggest that the claimed invention [wa]s
directed to an improvement in the computer technology
itself and not directed to generic components performing
conventional activities.” Id.

23a
Appendix B
Plaintiff also cites to Bascom Global Internet
Services, Inc. v. AT&T Mobility LLC in support of its
argument that the ’590 patent is “directed to a specific
improvement in how a functionally-improved digital
lockbox can selectively ‘filter in’ entry for visitors having
unique ‘automated entry information’ while ‘filtering
out’ entry to those that don’t.” ECF No. 25 at 14, 25-28
(citing Bascom, 827 F.3d 1341 (Fed. Cir. 2016); see also
Proposed Am. Compl., ECF No. 24-1, Ex. A ¶ 26 (alleging
that automated entry information “associates a request to
access a particular property with a particular visitor at a
specific time, which is tantamount to being able to ‘filter
out’ requests by other visitors”). In Bascom, the Court
found that the patent-at-issue was “inventive” where the
“the patent describe[d] how its particular arrangement
of elements [wa]s a technical improvement over prior art
ways of filtering . . . content.” 827 F.3d at 1350 (emphasis
added).
The Court has already distinguished this case from
Bascom. ECF No. 22 at 14-17. Plaintiff now supplements is
previously asserted arguments with boilerplate language
asserting that the ’590 patent “inherently performs steps
that are specific to the use of computers” and “improves
both the function of a technology-enabled lockbox as well
as the technological process for showing a property to a
visitor.” See Proposed Am. Compl., ECF No. 24-1, Ex. A
¶¶ 22-27. Plaintiff also now describes the lockbox’s
“filtering function.” Id. at ¶ 26. To the extent Plaintiff has
included new facts such as “the server database can be
configured to issue between 9 to 100 unique valid entry
codes per day,” the Court has thoroughly analyzed such
facts and finds its analysis unchanged. See Proposed Am.

24a
Appendix B
Compl., ECF No. 24-1, Ex. A ¶¶ 22-27. Further, unlike the
claim language at issue in Bascom, the Court finds nothing
in the claim language at issue specific to “filtering.” 827
F.3d at 1345-46. Plaintiff simply alleges magic words that
are not captured in the claim language.
Despite the boilerplate allegations set forth in
Plaintiff’s Proposed Amended Complaint, the ’590 patent
simply “do[es] not purport to improve the functionality
of a computer or overcome existing technology-based
problems.” ECF No. 22 at 14-17. Unlike the allegations in
Aatrix, which demonstrated that the claimed invention was
“directed to an improvement in the computer technology
itself,” the Proposed Amended Complaint here offers
nothing of substance to change the Court’s prior analysis
that the claim at issue here is not “directed to any specific
improvement in computer functionality or capabilities,”
but consists instead of the conventional arrangement of
generic components. ECF No. 22 at 17; Aatrix, 882 F.3d at
1127; see also Secured Mail Sols., LLC v. Universal Wilde,
Inc., 873 F.3d 905, 913 (Fed. Cir. 2017) (“a court need not
accept as true allegations that contradict . . . the claim and
the patent specification”) (internal quotations omitted); see
also Ipa Techs, Inc., 352 F. Supp. 3d at 351 (D. Del. 2019)
(finding multiple factual allegations insufficient to “infer
an inventive concept when the . . . patents themselves make
clear that the technology is not inventive.”).

25a
Appendix B
ii.

The Proposed A mended Complaint Does
N o t S et F ort h S u ffici en t C oncr et e
Factual Allegations that the Elements of
the ’590 Patent A re Unconventional and
Non-Routine.

Plaintiff also argues that the Proposed Amended
Complaint “makes numerous allegations and includes
evidence about how the claimed combination of steps
comprising ‘automated entry’ constitute[s] an improved,
unconventional, non-routine process for show ing
properties.” ECF No. 25 at 20-21. In response, Defendant
argues that Plaintiff’s “allegations regarding the use of its
commercial product, which are divorced from any claim
language, merely indicate that automated entry provided
an improvement over traditional practices and fail to show
that any of the claim limitations in Claim 7 are anything
other than what was well-understood, routine, and
conventional.” ECF No. 28 at 7-8. Defendant argues that
Plaintiff “provides several paragraphs of allegations that
merely reiterate the problem solved, i.e., providing entry
to a property without an agent present.” Id. at 7 (citing
Proposed Am. Compl., ECF No. 24-1, Ex. A ¶¶ 9-13).
The Court agrees with Defendant. Plaintiff certainly
includes allegations that the ’590 patent’s process for
automated entry introduced an improvement over the
traditional methods for scheduling property viewings
in the real estate industry. However, “the relevant
inquiry is not whether the claimed invention as a whole
is unconventional or non-routine.” BSG Tech LLC v.
Buyseasons, Inc., 899 F.3d 1281,1290 (Fed. Cir. 2018).

26a
Appendix B
“If a claim’s only ‘inventive concept’ is the application of
an abstract idea using conventional and well-understood
techniques, the claim has not been transformed into a
patent-eligible application of an abstract idea.” Id. at
1290-91.
In essence, Plaintiff’s Proposed Amended Complaint
alleges that “‘automated entry’ into a property achieved
by the integration and coordination of a server with a
lockbox and a portable device via an application interface,
. . . enabling the remote and automatic issuance of a
unique durational code . . . to facilitate entry, was neither
conventional, routine, or well understood in any industry,
including property management and real estate.” Proposed
Am. Compl., ECF No. 24-1, Ex. A ¶ 28. Like the allegations
in Plaintiff’s initial complaint, the new allegations in the
Proposed Amended Complaint “simply restate[ ] what
we have already determined is an abstract idea and
describe[ ] the implementation of the abstract idea through
conventional computer components.” ECF No. 22 at 19
(quoting BSG Tech., 899 F.3d at 1291) (clarifying that the
Court need not consider whether execution of an abstract
idea “on a generic computer” is “well-understood, routine,
and conventional[,]” but rather, only “whether the claim
limitations other than the invention’s use of the ineligible
concept to which it was directed [a]re well understood,
routine and conventional.”)).

27a
Appendix B
iii. The Claim Language Informs the Court’s
Finding that Claim 7 Does not Contain an
Inventive Concept that Transforms The
Claim into a Patent-Eligible Concept.
Finally, although the Court must accept as true the
factual allegations of the Proposed Amended Complaint
and such allegations may “fill the gap” in the claim
language, the Court’s primary analysis hinges on
examination of the claim language of the patent itself. See
Automated Tracking Sols., LLC v. Coca-Cola Co., 723 F.
App’x 989, 993 (Fed. Cir. 2018) (“Under the second step
of the Alice analysis, we examine the claim limitations
more microscopically to determine whether they contain
additional features sufficient to transform the nature of
the claim into a patent-eligible application.”) (internal
quotations removed); see also Ipa Techs. v. Amazon, 352
F. Supp. 3d 335, 350 (D. Del. 2019) (finding that allegations
asserting “that the construction of a navigation query
results in improvements to computer functionality and
technological processes including increased efficiency and
speed” were insufficient where “no portion of the claims
or specification cited shows how the construction of a
navigation query results in increased efficiency or speed
in computer functionality.”) (internal quotations omitted).
Examining the claim language itself, the Court finds,
as it did at the motion to dismiss stage, that the elements
set forth therein, considered both individually and as
an ordered combination, consist of generic components
“arranged in a conventional manner to execute the
undoubtedly conventional functions of identity verification,

28a
Appendix B
time-sensitive code-generation, remote automated access,
information collection and display, and the use of database
tables.” ECF No. 22 at 17. “Additionally, ‘[v]iewed as a
whole, these method claims simply recite the concept of’
automated entry to a property ‘as performed by a generic
computer’ or computers.” Id. at 17 (quoting Alice, 134 S. Ct.
at 2359). As such, the Court reiterates its finding that the
elements of Claim 7, both individually and as an ordered
combination, do not add anything inventive which would
transform the claim into a patent-eligible concept.
For these reasons, allowing the Proposed Amended
Complaint would be futile insofar as it would not survive
a motion to dismiss for patent ineligibility under step two
of Alice.
V. CONCLUSION
For the above reasons, the Court FINDS that
Plaintiff’s Proposed Amended Complaint, ECF No. 24-1,
Ex. A, would not survive a motion to dismiss pursuant to
Federal Rule of Civil Procedure 12(b)(6). As such, allowing
Plaintiff to file the Proposed Amended Complaint would
be futile.
Accordingly, the Court DENIES Plaintiff’s Motion for
Leave to File Amended Complaint, ECF No. 24.
The Court further DENIES Plaintiff’s Motion to Alter
or Amend Judgment, ECF No. 26.

29a
Appendix B
The Clerk is DIRECTED to forward a copy of this
Opinion and Order to all Counsel of Record.
IT IS SO ORDERED.
/s/ Robert G. Doumar
Robert G. Doumar
Senior United District Judge
UNITED STATES DISTRICT JUDGE
Norfolk, VA
April 4th, 2019

30a
Appendix
C ORDER OF THE
APPENDIX C — OPINION
AND
UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF VIRGINIA, NORFOLK
DIVISION, DATED NOVEMBER 1, 2018
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA,
NORFOLK DIVISION
CIVIL NO. 2:18cv355
CONSUMER 2.0, INC. d/b/a RENTLY,
Plaintiff,
v.
TENANT TURNER, INC.,
Defendant.
OPINION AND ORDER
This matter comes before the Court on a Motion to
Dismiss (“Motion”) filed by Defendant Tenant Turner, Inc.
(“Defendant”). ECF No. 12. In such motion, Defendant
asks the Court to dismiss the Complaint (“Complaint”)
filed by Consumer 2.0, Inc., d/b/a Rently (“Plaintiff”) in
its entirety, pursuant to Fed. R. Civ. P. 12(b)(6). ECF Nos.
1, 12. In its Complaint, Plaintiff alleges that Defendant
has infringed one or more claims of United States Patent
No. 9,875,590, entitled “Automated Entry” (“the ’590
patent”). ECF No. 1 ¶ 9. The issue before the Court is
whether the ’590 patent claims patentable subject matter

31a
Appendix C
under 35 U.S.C. § 101. For the reasons set forth below, the
Court GRANTS Defendant’s Motion to Dismiss as to the
claims asserted in Plaintiff’s Complaint and DISMISSES
Plaintiff’s Complaint WITHOUT PREJUDICE. ECF
No. 1.
I.

BACKGROUND
A.

Procedural History

On July 3, 2018, Plaintiff filed a Complaint against
Defendant alleging patent infringement of the ’590
patent, “Automated Entry.” ECF No. 1. On August 7,
2018, Defendant filed the instant Motion to Dismiss along
with its Memorandum in Support, to which Plaintiff filed
its Response in Opposition (“Resp.”) on August 28, 2018.
ECF Nos. 12, 13, 16. Defendant filed its Reply to Plaintiff’s
Opposition on September 4, 2018 (“Reply”). ECF No. 17.
The parties jointly filed a Motion for Oral Argument on
September 6, 2018. ECF No. 18. The parties appeared
before the Court for a hearing on this matter on October
15, 2018. ECF No. 20.
B. Patent-in-Suit
Plaintiff alleges that Defendant infringes claims 7, 8,
9, 10, 11, 12, 13, 14, 15, and 16 of the ’590 patent. ECF No.
1 ¶¶ 17 – 35. According to the ’590 patent’s description,
the “system provides automated entry to a prospective
buyer or renter of properties” and “automates the tour
registration process,” which “eliminates the need to
arrange a tour with an agent or landlord” and “eliminates

32a
Appendix C
the need for an on-site representative of the property.”
’590 patent, ECF No. 1-1, Ex. 1 at 19. The patent identifies
several entities that perform the patent’s method: (1)
a lockbox or automated door lock, (2) a server, (3) an
application interface, and (4) a portable device.
“[A] lockbox or similar locking device is placed at or
near a property in order to enable an invited visitor to
gain automated and unaccompanied entry into a specific
property during a specified period of time.” Resp., ECF
No. 16 at 8. An “application collects information from the
visitor’s portable device about the visitor and his planned
visit” and “[t]his information is relayed to a server.” Id.
“The application provides the visitor with an invitation to
receive automated entry information (e.g., a valid code).”
Id. The application interface retrieves “automated entry
information from coordinated server and lockbox database
tables.” Id. At this stage, a valid code is issued that
“correlates with a specific period of time that a specific
property may be visited by the invited visitor.” Id. The
application interface requests “identifying information
through the invited visitor’s portable device.” Id. The
valid code is then “communicated to the invited visitor’s
portable device via the application interface from the
server.” Id. at 8-9. “The lockbox or similar locking device”
is then able to “be opened to facilitate the automated
and unaccompanied entry” by the visitor. Id. at 9. “The
application also tracks in real-time the identity of and time
when a visitor actually visits a property.” Id.
This process is described in Claim 7 of the patent,
which is representative:

33a
Appendix C
A method for providing automated entry to properties,
comprising:
making properties available for viewing to
invited visitors;
providing an application interface of an
application running on a computing system to a
property manager, the property manager being
a manager, a listing agent or an owner of the
property, the application interface prompting
the property manager to enter a visitor name
and contact information for a visitor, wherein
upon receipt of the visitor name and contact
information, the application provides the
visitor with an invitation to receive automated
entry information including code information
that is valid during a specified period of time
so that the visitor can enter a property by
themselves, the invitation being delivered
to the visitor electronically, the invitation
being applicable only to the property and the
invitation requesting identification from the
visitor;
placing a lock box or an automated door lock at
or near each property;
upon the application receiving and confirming
identification information for the visitor,
providing, by the application, automated entry
information to the visitor that allows the visitor

34a
Appendix C
to enter the property, the automated entry
information including code information that is
valid during the specified period of time;
upon the visitor providing the code information
to the lock box or the automated door lock at
the property within the specified period of time,
the lock box or the automated door lock opening
to facilitate automated entry to the property;
tracking visitor activities at the properties; and
making information about the properties
available within a user interface.
’590 patent, ECF No. 1-1, Ex. 1 at 23. Claim 7 is the
only independent claim asserted in the Complaint. The
dependent claims (8-16) build on this basic framework.
The patent-at-issue was initially rejected by the
patent examiner as “directed to non-statutory subject
matter because the claim(s) as a whole, considering all
claim elements both individually and in combination, d[id]
not amount to significantly more than an abstract idea.”
ECF No. 13-1, Ex. 2 at 4. The patent examiner specifically
stated that claims 1, 6, and 12, which Plaintiff notes later
became representative Claim 7, were rejected because
they were “directed to an abstract idea.” Id.; Resp., ECF
No. 16 at 18. In response to the initial rejection, Claim
12 was amended, in part, to include the addition of the
steps of “placing a lock box or an automated door lock
at or near the property” and such device “opening to

35a
Appendix C
facilitate automated entry to the property” in response
to the “visitor providing code information to the lock box
or automated door lock within the specified period of
time.” ECF No. 13-3, Ex. 3 at 3. The applicant also argued
that these additions consisted of “physical (not abstract)
action[s]”. Resp., ECF No. 16 at 19 (citing ECF No. 16-3,
Exhibit C at 2). Following these amendments, the patent
examiner found that “[a]pplicant’s response by virtue
of amendment to claims has overcome the examiner’s
rejection under 35 U.S.C. § 101.” ECF No. 13-4, Ex. 4 at 4.
II. STANDARD OF REVIEW
A defendant may move to dismiss a complaint under
Rule 12(b)(6) on the grounds that it fails to state a claim on
which relief can be granted. Fed. R. Civ. P. 12(b)(6). Such a
motion should be granted if it appears that the plaintiff is
not “entitled to relief under any legal theory which might
plausibly be suggested by the facts alleged.” Harrison v.
United States Postal Serv., 840 F.2d 1149, 1152 (4th Cir.
1988) (internal citation omitted). To survive a motion
to dismiss, the facts alleged in the complaint “must be
enough to raise a right to relief above a speculative level”
and must be sufficient “to state a claim to relief that is
plausible on its face.” Bell Atlantic Corp. v. Twombly, 550
U.S. 544, 547, 127 S. Ct. 1955, 167 L. Ed. 2d 929 (2005).
Where the claim is one of patent infringement, there must
be “sufficient factual allegations and plausibility of those
allegations” to survive a motion to dismiss. Bel Ip LLC v.
Boomerangit Inc., No. 2:11cv188, 2011 U.S. Dist. LEXIS
164358, 2011 WL 13228482, at *5 (E.D. Va. Sept. 27, 2011).

36a
Appendix C
In resolving a Rule 12(b)(6) motion, the court must
assume the truth of all facts alleged in the complaint
and construe the factual allegations in favor of the nonmoving party. Robinson v. Am. Honda Motor Co., 551
F.3d 218, 222 (4th Cir. 2009). However, the court is not
bound by the complaint’s legal conclusions. Ashcroft v.
Iqbal, 556 U.S. 662, 678, 129 S. Ct. 1937, 173 L. Ed. 2d
868 (2009). Furthermore, the court may not consider
any matters outside the pleadings, but it may consider
written instruments that are attached as exhibits to a
pleading, Occupy Columbia v. Haley, 738 F.3d 107, 116
(4th Cir. 2013), as these exhibits are “part of the pleading
for all purposes.” Fed. R. Civ. P. 10(c). The Court may also
take judicial notice of items in the public record, Hall v.
Virginia, 385 F.3d 421, 424 n.3 (4th Cir. 2004), including
patent and trademark registrations, Zinner v. Olenych,
108 F. Supp. 3d 369, 377 n.2 (E.D. Va. 2015).
“A motion to dismiss for failure to state a claim upon
which relief can be granted is not a procedural matter
implicating unique issues of patent law, and thus the
law of the Federal Circuit is not controlling.” Taltwell,
LLC v. Zonet USA Corp., No. 3:07cv543, 2007 U.S.
Dist. LEXIS 93465, 2007 WL 4562874, at *13 (E.D. Va.
Dec. 20, 2007). Although the Fourth Circuit has yet to
address the pleading standard for patent claims in light
of Twombly and Iqbal, it is clear that a claim for patent
infringement must, at a minimum, set forth “sufficient
factual allegations and plausibility of those allegations”
to survive a motion to dismiss. Bel Ip, No. 2:11cv188, 2011
U.S. Dist. LEXIS 164358, 2011 WL 13228482, at *5 (E.D.
Va. Sept. 27, 2011).

37a
Appendix C
Finally, patentability under section 101 is an issue
of law that may be resolved on a Rule 12(b)(6) motion to
dismiss. Content Extraction & Transmission LLC v.
Wells Fargo Bank, N.A., 776 F.3d 1343, 1349 (Fed. Cir.
2014). In determining eligibility, a court need not address
each claim if the court can identify a representative claim
and the “claims are substantially similar and linked to
the same abstract idea.” Id. at 1348 (internal quotation
omitted).
III. ANALYSIS
The issue here is whether the claims at issue are
eligible for patent protection. Section 101 of the Patent Act
defines the subject matter eligible for patent protection,
providing as follows:
Whoever invents or discovers any new and useful
process, machine, manufacture, or composition
of matter, or any new and useful improvement
thereof, may obtain a patent therefor, subject
to the conditions and requirements of this title.
35 U.S.C. § 101. However, the Supreme Court has “long
held that this provision contains an important . . . exception
for” three categories that are not eligible for patent
protection: “[l]aws of nature, natural phenomena, and
abstract ideas.” Alice Corp. Pty. v. CLS Bank Int’l, 573
U.S. 208, 134 S. Ct. 2347, 2354, 82 L. Ed. 2d 296, 189 L.
Ed. 2d 296 (2014) (internal quotations removed). In Mayo
Collaborative Services v. Prometheus Laboratories, Inc.,
566 U.S. 66, 132 S. Ct. 1289, 182 L. Ed. 2d 321 (2012), the

38a
Appendix C
Supreme Court “set forth a framework for distinguishing
patents that claim” one of these patent-ineligible concepts
“from those that claim patent-eligible applications of these
concepts.” Alice, 134 S. Ct. at 2355. In Alice, the Supreme
Court reaffirmed this two-step framework. 134 S. Ct. at
2355.
The first step of Alice requires a determination by
the Court as to “whether the claims at issue are directed
to” one of the three patent-ineligible concepts (laws of
nature, natural phenomena, or abstract ideas). 134 S.
Ct. at 2355 (citing Mayo, 566 U.S. at 76-79). If the Court
determines that the claims are directed to an abstract
idea, it proceeds to the second step, which requires the
Court to consider “what else” is in the claims that may
that would make them eligible for patent protection. Id.
(internal quotations removed). To answer this question,
the Court must “consider the elements of each claim both
individually and ‘as an ordered combination’ to determine
whether the additional elements ‘transform the nature of
the claim’ into a patent-eligible application.” Id. (quoting
Mayo, 566 U.S. at 77-79). This second step is described
by the Supreme Court as the search for an “‘inventive
concept’-i.e., an element or combination of elements
that” ensures that the patent claims at issue amount
to “significantly more” than claims upon an ineligible
concept. Id. (quoting Mayo, 566 U.S. at 77).
A.

ALICE STEP ONE

Step one of Alice requires the Court to determine
whether the asserted claims of the ’590 patent describe

39a
Appendix C
a patent-ineligible concept: laws of nature, natural
phenomena, or abstract ideas. Alice, 134 S. Ct. at 2355.1
Here, Defendant argues that the patent-at-issue is
directed to an abstract idea. ECF No. 13 at 2. As noted
in Alice, “[t]he abstract ideas category embodies ‘the
longstanding rule that [a]n idea of itself is not patentable.”
134 S. Ct. at 2355 (internal quotations omitted).
“The Supreme Court has not established a definitive
rule to determine what constitutes an ‘abstract idea.’”
Enfish, LLC v. Microsoft Corp., 822 F.3d 1327, 1334
(Fed. Cir. 2016). Although “[t]here have been somewhat
contradictory points of emphasis in the opinions of the
Supreme Court and Federal Circuit that address what
constitutes an abstract idea,” the Federal Circuit and
Fourth Circuit have “looked to some important principles
laid down by the Supreme Court in recent cases to
decide what is an abstract idea.” Asghari-Kamrani v.
United Servs. Auto. Ass’n, No. 2:15cv478, 2016 U.S. Dist.
LEXIS 87065, 2016 WL 3670804, at *3 (E.D. Va. July
5, 2016) (internal quotations omitted). For example, in
Alice, the Court noted that “fundamental economic” and
“longstanding commercial practice[s]” are “methods of
1. The Court limits the scope of this ruling to the claims
asserted and set forth in Plaintiff’s Complaint. The Court does not
have jurisdiction to rule on unasserted claims. See Fox Group, Inc.
v. Cree, Inc., 700 F.3d 1300, 1308 (Fed. Cir. 2012) (“There was no case
or controversy with respect to the unasserted claims . . . ; therefore
the district court did not have jurisdiction over the unasserted
claims.”). As Defendant notes, “Claim 7 of the ’590 Patent . . . is the
sole asserted independent claim.” ECF No. 13 at 11. Therefore, this
Opinion and Order only applies to the asserted claims.

40a
Appendix C
organizing human activity” that are “within the realm
of abstract ideas.” Alice, 134 S. Ct. at 2356-57 (finding
that claims directed to automating the use of a third
party to mitigate settlement risk were abstract) (internal
quotations omitted).
Following Alice’s guidance, courts have found that
claims which are primarily directed at “collecting,
analyzing, and displaying data” as well as claims that
“classify[ ] and stor[e] digital images in an organized
matter” through the implementation of a ser ver
are abstract ideas. See SmarTEN LLC v. Samsung
Electronics Am., Inc., 316 F. Supp. 3d 913, 920-22 (E.D.
Va. 2018); In re TLI Commc’ns LLC Patent Litig., 823
F.3d 607, 611 (Fed. Cir. 2016). Claims encompassing the
“idea of sending a request, receiving back a command,
and executing a command to operate a device in a known
and expected way” have also been found to be abstract.
Chargepoint, Inc. v. Semaconnect, Inc., No. MJG-173717, 2018 U.S. Dist. LEXIS 49026, 2018 WL 1471685, at
*10-11 (D. Md. Mar. 23, 2018). The Federal Circuit also
recently determined that a patent “directed to systems for
locating, identifying and/or tracking of an object using”
radio frequency identification components was “directed
to an abstract idea.” Automated Tracking Sols., LLC v.
Coca-Cola Co., 723 F. App’x 989, 993 (Fed. Cir. 2018).
Importantly, the Federal Circuit has added a new
consideration to the first step of the Alice analysis for
claims involving computer-related technology. The purpose
of this new consideration is to distinguish between claims
that “merely recite the performance of some business

41a
Appendix C
practice known from the pre-Internet world along with the
requirement to perform it on the Internet” and claims that
are “necessarily rooted in computer technology in order
to overcome a problem specifically arising in the realm
of computer networks.” DDR Holdings, LLC v. Hotels.
com, L.P., 773 F.3d 1245, 1257 (Fed. Cir. 2014); see also
Enfish, 822 F.3d at 1335 (demonstrating that the Federal
Circuit has begun to ask “whether the claims are directed
to an improvement to computer technology versus being
directed to an abstract idea, even at the first step of the
Alice analysis.”). “As Federal Circuit precedent makes
clear, a claim is directed to the improvement of a device
when it is focused on ‘a specific improvement-[such as] a
particular database technique—in how computers c[an]
carry out’ a function, rather than on ‘asserted advances
in uses to which existing computer capabilities could be
put.’” SmarTEN, 316 F. Supp. 3d at 922 (quoting Elec.
Power Grp., LLC v. Alstom S.A., 830 F.3d 1350, 1354
(Fed. Cir. 2016)) .
The claims in Alice were directed to a “computerized
scheme for mitigating ‘settlement risk’-i.e., the risk that
only one party to an agreed-upon financial exchange
will satisfy its obligation.” 134 S. Ct. at 2352. The claims
provided a solution to this problem, but one which the
Court noted was “long prevalent in our” commercial
system: “intermediated settlement, i.e., the use of a third
party to mitigate settlement risk.” Id. at 2356 (internal
quotations removed). The fact that a human third-party
intermediary was no longer necessary because a computer
performed part of this method was of no consequence
to the Court. Instead, the Court highlighted that

42a
Appendix C
intermediated settlement was a longstanding “method
of organizing human activity” as well as a “fundamental
economic practice.” Id. at 2356-57. As such, the patent
claims were merely directed to an abstract idea.
Similarly, in Asghari, this Court found that an
invention relating “to a system and method . . . for
centralized identification and authentication of users and
their transactions to increase security in e-commerce”
was a patent-ineligible, abstract idea. 2016 U.S. Dist.
LEXIS 87065, 2016 WL 3670804, at *1. This Court held
that “despite the electronic setting and purportedly
Internet-specific problem addressed, the patent claims
[we]re directed to a common method for solving an old
problem.” 2016 U.S. Dist. LEXIS 87065, [WL] at *4. The
claims at issue were merely “directed to the abstract idea
of using a third party and a random, time-sensitive code
to confirm the identity of a participant to a transaction.”
Id. Critical to the Court’s decision was the fact that
“[n]othing about the concept behind the patent claims depends
upon their implementation by computers.” Id. In fact, “the
concept could easily be performed either by hand or, more
simply, with technologies much older than computers.” Id.
This Court finds that the claims at issue are directed
to an abstract idea. Distilled to its essence, the claims
use generic computing devices and techniques to provide
automated entry to a property without human interaction.
As Defendant notes, “[r]eal estate agents have used
lockboxes to provide licensed real estate professionals
access to properties for decades.” ECF No. 13 at 9. The
’590 patent simply automates that process using generic

43a
Appendix C
computer components such as a server, technologyenabled lock box /automated door lock, application
interface, and mobile device. However, automation of a
human, manual process is an abstract idea. See CalAmp
Wireless Networks Corp. v. ORBCOMM, Inc., 233 F. Supp.
3d 509, 513 (E.D. Va. 2017) (finding that automation of a
process that “humans ha[d] been forever using” had no
bearing on the court’s analysis under Alice, regardless
of the fact that it “had never before been automated”);
Chargepoint, 2018 U.S. Dist. LEXIS 49026, 2018 WL
1471685, at *7 (“mere automation of a manual process is . . .
an abstract idea”). Further, the fact that this process “had
never before been automated” is entirely inconsequential.
See CalAmp, 233 F. Supp. 3d at 513. As such, much like
the claims in Asghari, “despite the electronic setting
. . . , the patent claims are directed to a common method”
(automation) “for solving an old problem” (the problem of
how to provide an invited visitor entry to a property for a
specified period of time). Asghari, 2016 U.S. Dist. LEXIS
87065, 2016 WL 3670804, at *4.
The Court recognizes, however, that there are
multiple elements comprising the representative claim,
which result in the process of automated entry. Following
the Federal Circuit’s warning to avoid analyzing and
describing the claims at issue at “a high level of abstraction
and untethered from the language of the claims,” the
Court has considered each of these elements. Enfish,
822 F.3d at 1337. Such consideration, however, results in
the same conclusion: the elements are, considered both
individually and as a combination, merely directed to
abstract ideas.

44a
Appendix C
Several of the elements are merely directed to the
implementation of the abstract idea of providing automated
entry and making properties available for viewing to invited
visitors through generic computer components, such as an
“application interface” and a “server.” ’590 patent, ECF No.
1-1, Ex. 1 at 23. For example, Claim 7 states that:
the application interface prompting the property
manager to enter a visitor name and contact
information for a visitor, wherein upon receipt
of the visitor name and contact information, the
application provides the visitor with an invitation
to receive automated entry information including
code information that is valid during a specified
period of time so that the visitor can enter a
property by themselves, the invitation being
delivered to the visitor electronically, the
invitation being applicable only to the property
and the invitation requesting identification from
the visitor
...
upon the application receiving and confirming
identification information for the visitor,
providing, by the application, automated entry
information to the visitor that allows the visitor
to enter the property, the automated entry
information including code information that is
valid during the specified period of time.
Id.

45a
Appendix C
There is nothing in the language of these elements
indicating that the claim at issue here is directed to
any specific improvement in computer functionality or
capabilities. The Federal Circuit was clear in Enfish that
the proper question for the Court is “whether the focus
of the claims is on the specific asserted improvement in
computer capabilities . . . or, instead, on a process that
qualifies as an abstract idea for which computers are
invoked merely as a tool.” 822 F.3d at 1335-36 (internal
quotations omitted). In Enfish, the claims at issue were
directed to improving a computer’s functionality, as they
introduced “an innovative logical model for a computer
database,” using a single “self-referential table” to store
data. Id. at 1331, 1335-36. Plaintiff asserts that “Claim
7 describes an improvement in the coordination and
operation of a computer network server with a digital
lockbox by coordinating the database tables of the server
and digital lockbox to electronically provide automated
entry information to an invited visitor that is valid for a
specified period of time to facilitate access to a specific
property.” Resp., ECF No. 16 at 24. However, this assertion
demonstrates that the claims at issue do not provide any
improvement in computer functionality or capabilities,
but rather, merely coordinate pre-existing and generic
computer components to implement an abstract idea. The
claims at issue “simply add[]” the coordination of these
“conventional computer components” to a “well-known
business practice.” Enfish, 822 F.3d at 1338 (citing Alice,
134 S. Ct. at 2358-60).
Furthermore, Plaintiff ’s inclusion of tangible
components such as the lockbox and mobile device does

46a
Appendix C
not prevent this Court from determining that the claims
are directed to an abstract idea. See TLI Commc’ns,
823 F.3d at 611 (“the specification makes clear that the
recited physical components merely provide a generic
environment in which to carry out the abstract idea”);
Automated Tracking Solutions, LLC v. Coca-Cola Co.,
223 F. Supp. 3d 1278, 1289 (N.D. Ga. 2016) (finding that
physical components such as a “transponder,” “reader,”
and “antenna” simply “provide[d] an environment in which
to carry out the abstract idea”), aff’d, 723 F. App’x 989
(Fed. Cir. 2018) (internal quotations removed).
Additionally, the element that provides for “upon the
visitor providing the code information to the lock box or
automated door lock . . . the lock box or automated door
lock opening to facilitate automated entry” is directed to
an abstract idea. ’590 patent, ECF No. 1-1, Ex. 1 at 23.
In Chargepoint, the court clarified that claims amounting
to merely “operating an existing device from a remote
location over a network” do not constitute a “technological
improvement” and are therefore, not patent-eligible.
2018 U.S. Dist. LEXIS 49026, 2018 WL 1471685, at *11.
Further, the fact that “the essence of the invention” at
issue was “controlling the . . . process remotely, as opposed
to someone physically charging it” played a significant role
in the court’s determination that the claim encompassed a
practice long prevalent in our system and was therefore,
abstract. 2018 U.S. Dist. LEXIS 49026, [WL] at 9-11
(internal quotations removed). See also CalAmp, 233 F.
Supp. 3d at 513 (noting that automation of a process that
“humans ha[d] forever been using” had no bearing on
the court’s analysis under Alice). Similarly, this element

47a
Appendix C
of the ’590 patent does not constitute a technological
improvement, but merely removes the human component
of a practice long prevalent in the real estate industry.
The fact that the claim includes an element of
“tracking” also does not take the patent-at-issue out of
the realm of abstract. See, e.g., CalAmp, 233 F. Supp. 3d at
513; Automated Tracking, 723 F. App’x at 993. In CalAmp,
the Court determined that a patent was abstract where,
“[d]istilled to its essence,” it claimed a system of “tracking
an object by: (1) assessing the current location of the
object; (2) obtaining the object’s required location for the
corresponding time; (3) determining whether the object
is in the required location; and (4) requesting information
in response to that determination.” 233 F. Supp. 3d at 512.
The tracking component here is certainly no less abstract
that the tracking at issue in CalAmp. Although the ’590
patent contains a “tracking” element, this element is not
defined anywhere in the ’590 patent. As Plaintiff admitted
at the hearing on the instant Motion, the only “tracking”
this element provides is to “tell[ ] the system . . . when
a visitor went to a specific property and who that visitor
was.” See Hearing Transcript, ECF No. 21 at 32; see also
Resp., ECF No. 16 at 2 (“[t]he application . . . tracks in
real-time the identity of and time when a visitor actually
visits a property.”). As such, Plaintiff’s inclusion of this
element is insufficient to create patent-eligibility.
Finally, the Court finds that the element of “making
information about the properties available within a user
interface” simply consists of collecting and displaying
data, a process which Courts have consistently found to

48a
Appendix C
be abstract. ’590 patent, ECF No. 1-1, Ex. 1 at 23; see
SmarTEN, 316 F. Supp. 3d at 920-22; Electric Power, 830
F.3d at 1353-54.
Furthermore, the mere combination of these abstract
processes is insufficient to bring the patent-at-issue out
of the realm of the abstract. Electric Power, 830 F.3d at
1354 (finding no inventive concept where the claims were
“clearly focused on the combination of . . . abstract-idea
processes); CalAmp, 233 F. Supp. 3d at 513 (finding that
the patent-at-issue was directed to an abstract idea where
the claims “focused on a combination of abstract-idea
processes”); Asghari, 2016 U.S. Dist. LEXIS 87065, 2016
WL 3670804, at *4 (finding that combining the abstract
ideas of “using of a third party intermediary and a
random, time-sensitive code to confirm the identity of a
participate to a transaction” was insufficient to “remove
[ ] the patent claims from the realm of the abstract”); VOIT
Techs., LLC v. Del-Ton, Inc., No. 5:17-CV-259-BO, 2018
U.S. Dist. LEXIS 5130, 2018 WL 385188, at *2 (E.D.N.C.
Jan. 10, 2018) (“[T]he patent strings together a description
of things that already existed, and calls that series of steps
patent-eligible. It is not.”).
For these reasons, the Court finds that the ’590 patent
as a whole is directed to the abstract idea of provided
automated entry.
B. ALICE STEP TWO
Because the Court has determined that the ’590 patent
is merely an abstract idea, it must proceed to the second

49a
Appendix C
step of Alice. Step two is described as the “search for
an ‘inventive concept.’” Alice, 134 S. Ct. at 2355 (quoting
Mayo, 566 U.S. at 72-73). This step requires the Court
to “consider the elements of each claim both individually
and ‘as an ordered combination’ to determine whether
the additional elements ‘transform the nature of the
claim’ into a patent-eligible application” and “‘ensure
that the patent in practice amounts to significantly more
than a patent upon the [ineligible concept] itself.’” Alice,
134 S. Ct. at 2355 (quoting Mayo, 566 U.S. at 72-73, 7879). This step is satisfied if “the claim limitations involve
more than performance of well-understood, routine, [and]
conventional activities previously known to the industry.”
Berkheimer v. HP, Inc., 881 F.3d 1360, 1367 (Fed. Cir.
2018) (internal quotations omitted).
Plaintiff asserts that Claim 7 should “pass this test
as containing a sufficient inventive concept” because
“the coordinated server and lockbox with the application
interface on a portable device represents a level of
symbiotic operation that never previously existed.” Resp.,
ECF No. 16 at 22. Plaintiff relies heavily upon BASCOM
Global Internet Services, Inc. v. AT&T Mobility LLC in
support of this position. 827 F.3d 1341 (Fed. Cir. 2016).
After affirming the finding that “filtering content on the
internet” was an abstract idea, the BASCOM court found
that “the installation of a filtering tool at a specific location,
remote from the end-users, with customizable filter
features specific to each end user” was nevertheless an
inventive concept. BASCOM, 827 F.3d at 1348-50. As part
of its analysis, the court noted that “an inventive concept
can be found in the non-conventional and non-generic

50a
Appendix C
arrangement of known, conventional pieces.” Id. at 1350.
Therefore, the patent’s description of “how its particular
arrangement of elements [wa]s a technical improvement
over prior art ways of filtering such content” satisfied the
court’s search for an inventive concept. Id.
The claims in BASCOM, however, “address[ed] a
problem arising in the realm of computer networks,
and provide[d] a solution entirely rooted in computer
technology.” 827 F.3d at 1346. Further, the claimed
invention represented a “soft-ware-based invention[]
that improve[s] the performance of the computer system
itself” as well as “an existing technological process.”
Id. at 1351 (internal quotations omitted). As such, the
BASCOM court found that the patent-at-issue claimed a
“technology-based solution (not an abstract-idea-based
solution implemented with generic technical components
in a conventional way) to filter content on the Internet
that overcomes existing problems with other Internet
filtering systems.” Id.
The claims at issue here are distinguishable from
those in BASCOM as they do not purport to improve
the functionality of a computer or overcome existing
technology-based problems. A comparison with Asghari
is once again instructive. In Asghari, the steps of the
representative claim were as follows: “(1) receiving
electronically a request for a dynamic code for the user;
(2) generating by the Central-Entity a dynamic code; (3)
providing the generated dynamic code to the user; (4)
receiving electronically by the Central-Entity a request
for authenticating the user from a computer associated

51a
Appendix C
with the External-Entity; and (5) authenticating by the
Central-Entity the user and providing the result to the
External-Entity.” Asghari, 2016 U.S. Dist. LEXIS 87065,
2016 WL 3670804, at *5 (internal quotations omitted).
This Court found that “[t]aken individually, each of
these claim elements describe[d] conventional computer
functions” and “[c]onsidered as an ordered combination,
the claim elements d[id] not add anything inventive to the
abstract concept underlying them,” nor did they “purport
to improve the functioning of the computer itself.” Id.
(internal quotations omitted). Instead, they “simply
instruct[ed] a generic computer or computers to verify the
identity of a participant to a transaction using a randomly
generated code.” Id.
Similarly, in CalAmp, the court found that “the use
of a remote database to save storage space on a tracking
device [wa]s hardly an unconventional solution.” CalAmp,
233 F. Supp. 3d at 515. Although “previous tracking
systems had not incorporated this particular arrangement
of database records,” “th[e] database structure had been
used in other types of systems.” Id. The court noted that
“[l]ong before the filing of” the patent-at-issue, “computer
systems had been configured in such a way to allow remote
terminals to access information stored on a centralized
database.” Id. at 514.
Here, Plaintiff states that the patent-at-issue
“contemplates an application providing automated
entry . . . by “invitation only” delivered electronically to
the portable device of a specific visitor” after “collect[ing]
information . . . about the visitor and his planned visit,”

52a
Appendix C
relaying this information to a server, and providing
“the visitor with an invitation to receive automated
entry information.” ECF No. 16 at 8. “The lockbox or
similar locking device may then be opened to facilitate
the automated . . . entry by the invited visitor.” Id. at 9.
The functions performed at each of these steps is purely
“conventional” and “does no more than require [ ] generic
computer” components to perform “generic computer
functions.” Asghari, 2016 U.S. Dist. LEXIS 87065, 2016
WL 3670804, at *5 (quoting Alice, 134 S. Ct. at 2359).
Although it may be true that previous systems had not
incorporated this particular combination of generic
components, before the filing of the patent-at-issue,
computer systems had certainly been configured in such
a way to allow a server to coordinate with automated
access/entry programs as well as application interfaces
on mobile devices. Distilled to their essence, these generic
components are arranged in a conventional manner to
execute the undoubtedly conventional functions of identity
verification, time-sensitive code-generation, remote
automated access, information collection and display, and
the use of database tables.
Additionally, “[v]iewed as a whole, these method claims
simply recite the concept of” automated entry to a property
“as performed by a generic computer” or computers.
Alice, 134 S. Ct. at 2359. As noted, there is nothing in
the language of these elements indicating that the claim
at issue here is directed to any specific improvement in
computer functionality or capabilities. Therefore, the
elements simply “do not add anything inventive to the
abstract concept underlying them.” Asghari, 2016 U.S.
Dist. LEXIS 87065, 2016 WL 3670804, at *5.

53a
Appendix C
For these reasons, the Court finds that the elements
of the claim at issue, both individually and as an ordered
combination, do not add anything inventive which would
transform the claim into a patent-eligible concept.
C.

THERE ARE NO FACTUAL QUESTIONS
THAT PRECLUDE A FINDING OF PATENT
INELIGIBILITY

Plaintiff argues that factual questions at issue in this
case preclude a finding of patent ineligibility at the motion
to dismiss stage. Resp., ECF No. 16 at 33. The Federal
Circuit recently held that “whether a claim element or a
combination of elements is well-understood, routine, and
conventional to a skilled artisan in the relevant field is a
question of fact.” Berkheimer v. HP, Inc., 881 F.3d 1360,
1368-70 (Fed. Cir. 2018). However, the court clarified that
“not every § 101 determination contains genuine disputes
over the underlying facts material to the § 101 inquiry”
and further noted that “[w]hen there is no genuine issue
of material fact regarding whether the claim element
or claim combination is well-understood, routine, [or]
conventional . . . , this issue can be decided . . . as a
matter of law.” Id. at 1368. In Automated Tracking, the
Federal Circuit affirmed the district court’s granting of
defendant’s motion for judgment on the pleadings where
the specification did not “support [Plaintiff’s] contention
that there is a factual dispute regarding whether the
claims recite routine and conventional...components.” 723
F. App’x at 995-96. See also TriPlay, Inc. v. WhatsApp
Inc., No. 13-1703-LPS-CJB, 2018 U.S. Dist. LEXIS
49953, 2018 WL 1479027, at *6, 8-9 (D. Del. Mar. 27, 2018)

54a
Appendix C
(granting a motion to dismiss where it was not evident
from the claims and specifications that there was “any
inventive feature...used in an unconventional matter” and
because the “gap in the specification [wa]s not filled by
[Plaintiff’s] pleadings.”).
In BSG Tech LLC v. Buyseasons, Inc., the Federal
Circuit clarified that it is not necessary to consider
whether execution of an abstract idea “on a generic
computer” is “well-understood, routine, and conventional.”
899 F.3d 1281, 1290-91 (Fed. Cir. 2018). Instead, the proper
analysis requires an assessment of whether “the claim
limitations other than the invention’s use of the ineligible
concept to which it was directed were well-understood,
routine, and conventional.” Id. at 1290 (citing Alice, 134
S. Ct. at 2359-60).
The Court finds that there is no question of fact as
to this issue. First, as discussed, the Court finds that
it is not evident from the ’590 patent specifications that
there is any inventive feature used in an unconventional
manner. Further, the Court finds nothing in the pleadings
to fill this gap in the specifications. The Complaint alleges
that “the ’590 patent eliminated the need existing at the
time for an on-site property management or real estate
professional to be present in order for an invited visitor
to gain physical access to the property” and that “prior
to [Plaintiff’s] invention, no other company in the field
had reduced to practice the method and system set forth
in the ’590 Patent.” ECF No. 1 ¶ 13. The only alleged
unconventional features of Plaintiff’s claims are that the
“elements set forth in the ’590 Patent both individually

55a
Appendix C
and in combination represent a novel approach for
enabling an invited visitor to self-register and self-access
a property” through the “coordination of operation of a
server, technology-enabled lock box, application interface,
and mobile device.” Id.; Resp., ECF No. 16 at 24. However,
“this simply restates what we have already determined
is an abstract idea” and describes the implementation
of the abstract idea through conventional computer
components. BSG Tech, 899 F.3d at 1291. Accordingly,
the Court reiterates its determination that there is no
inventive concept and finds that there are no factual issues
precluding the Court from dismissing this matter without
prejudice.
IV. CONCLUSION
For the above reasons, the Court holds that the
asserted claims of the ’590 patent at issue are invalid
because they are directed to an abstract idea and thus
ineligible for patent protection under 35 U.S.C. § 101. As
such, Plaintiff fails to state a claim for relief. Accordingly,
the Court GRANTS the Motion to Dismiss as to the claims
asserted in the Complaint, ECF No. 12, and DISMISSES
Plaintiff’s Complaint WITHOUT PREJUDICE, ECF
No. 1.
The Clerk is DIRECTED to forward a copy of this
Opinion and Order to all Counsel of Record.
IT IS SO ORDERED.

56a
Appendix C
		
		

/s/ ROBERT G. DOUMAR
UNITED STATES DISTRICT JUDGE

Norfolk, VA
November 15, 2018

57a
AppendixOF
D REHEARING OF
APPENDIX D — DENIAL
THE UNITED STATES COURT OF APPEALS FOR
THE FEDERAL CIRCUIT, FILED MAY 8, 2020
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2019-1846
CONSUMER 2.0, INC., DBA RENTLY,
Plaintiff-Appellant,
v.
TENANT TURNER, INC.,
Defendant-Appellee.
Appeal from the United States District Court for the
Eastern District of Virginia in No. 2:18-cv-00355-RGDDEM, Senior Judge Robert G. Doumar.
ON PETITION FOR PANEL REHEARING
AND REHEARING EN BANC
Before Prost, Chief Judge, Newman, Lourie, Dyk,
Moore, O’M alley, Reyna , Wallach, Taranto, Chen,
Hughes, and Stoll, Circuit Judges.
Per Curiam.

58a
Appendix D
ORDER
Appellant Consumer 2.0, Inc. filed a combined petition
for panel rehearing and rehearing en banc. The petition
was referred to the panel that heard the appeal, and
thereafter the petition for rehearing en banc was referred
to the circuit judges who are in regular active service.
Upon consideration thereof,
It Is Ordered That:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on May 15, 2020.
For the Court
May 8, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

